<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION

                    ___________________________________

     SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS

                      KAY GRANGER, Texas, Chairwoman

  MARIO DIAZ-BALART, Florida
  CHARLES W. DENT, Pennsylvania
  ANDER CRENSHAW, Florida
  THOMAS J. ROONEY, Florida
  JEFF FORTENBERRY, Nebraska
  CHRIS STEWART, Utah

  NITA M. LOWEY, New York
  BARBARA LEE, California
  C. A. DUTCH RUPPERSBERGER, Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  JOSE E. SERRANO, New York

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

            Anne Marie Chotvacs, Craig Higgins, Alice Hogans,
            Susan Adams, David Bortnick, and Clelia Alvarado,
                             Staff Assistants

                   ___________________________________

                                  PART 4

                       PUBLIC AND OUTSIDE WITNESSES

                
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   ___________________________________
                   
         Printed for the use of the Committee on Appropriations      

                   ___________________________________           

                    U.S. GOVERNMENT PUBLISHING OFFICE

97-394 PDF                  WASHINGTON : 2015
   

                
                   


                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey
  ROBERT B. ADERHOLT, Alabama
  KAY GRANGER, Texas
  MICHAEL K. SIMPSON, Idaho
  JOHN ABNEY CULBERSON, Texas
  ANDER CRENSHAW, Florida
  JOHN R. CARTER, Texas
  KEN CALVERT, California
  TOM COLE, Oklahoma
  MARIO DIAZ-BALART, Florida
  CHARLES W. DENT, Pennsylvania
  TOM GRAVES, Georgia
  KEVIN YODER, Kansas
  STEVE WOMACK, Arkansas
  JEFF FORTENBERRY, Nebraska
  THOMAS J. ROONEY, Florida
  CHARLES J. FLEISCHMANN, Tennessee
  JAIME HERRERA BEUTLER, Washington
  DAVID P. JOYCE, Ohio
  DAVID G. VALADAO, California
  ANDY HARRIS, Maryland
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

  NITA M. LOWEY, New York
  MARCY KAPTUR, Ohio
  PETER J. VISCLOSKY, Indiana
  JOSE E. SERRANO, New York
  ROSA L. DeLAURO, Connecticut
  DAVID E. PRICE, North Carolina
  LUCILLE ROYBAL-ALLARD, California
  SAM FARR, California
  CHAKA FATTAH, Pennsylvania
  SANFORD D. BISHOP, Jr., Georgia
  BARBARA LEE, California
  MICHAEL M. HONDA, California
  BETTY McCOLLUM, Minnesota
  STEVE ISRAEL, New York
  TIM RYAN, Ohio
  C. A. DUTCH RUPPERSBERGER, Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  HENRY CUELLAR, Texas
  CHELLIE PINGREE, Maine
  MIKE QUIGLEY, Illinois
  DEREK KILMER, Washington

                William E. Smith, Clerk and Staff Director

                                   (ii)
                                   
                                   
                                   
                                   
                             C O N T E N T S

                              ----------                              

                             March 25, 2015

                                                                   Page
Granger, Hon. Kay, opening statement.............................     1
Lowey, Hon. Nita M., opening statement...........................     1

                               Witnesses

Albright, Alice..................................................    32
Ardouny, Bryan...................................................   175
Arnold, David....................................................   214
Beckman, David...................................................    40
Bilimoria, Natasha F.............................................   265
Bourgault, Jeanne................................................   203
Calvelli, John...................................................    48
Carter, Joanne...................................................   133
Davidson, Dan....................................................   125
Derrick, Deborah.................................................   258
Hannum, Jordie...................................................    66
Klosson, Michael.................................................    12
Kohr, Howard.....................................................     2
Koloski, Metodija A..............................................   193
Koppel, Andrea...................................................   109
McQueen, Mary C..................................................   231
Memmedli, Bedir..................................................   275
Millan, William..................................................   164
Nahapetian, Kate.................................................   185
O'Keefe, Bill....................................................    94
Petrisin, Sue....................................................    75
Stoner, Dan......................................................   142
Stratford, Lynn..................................................   242
Sullivan, Lucy Martinez..........................................   250
Williams, Victoria Quinn.........................................    83

                           Submitted Material

Written testimony for the record.................................   283



STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2016

                              ----------                              

                                         Wednesday, March 25, 2015.

                   PUBLIC AND OUTSIDE WITNESS HEARING

                Opening Statement by Chairwoman Granger

    Ms. Granger. The hearing will come to order. I want to 
welcome everyone to today's hearing for the Subcommittee on 
State, Foreign Operations, and Related Programs.
    I also want to thank all the witnesses for being here 
today. I want to note for the record that all written testimony 
received by the subcommittee will be given the same 
consideration. Each witness will be given 4 minutes to provide 
remarks, and Members will have 1 minute to ask questions. 
Witnesses are reminded that the Members have your full 
testimony, and you are encouraged to summarize.
    I will yield first to Mrs. Lowey for any opening remarks.


                    opening statement by mrs. lowey


    Mrs. Lowey. Well, thank you.
    I join Chairwoman Granger in welcoming our distinguished 
witnesses here today. Thank you for coming to our subcommittee 
to present your views on the fiscal year 2016 budget. Our 
public witnesses, along with all those submitting written 
testimony for the record, represent a broad cross-section of 
interests.
    Leaders from industry, civil society, and the faith 
community have all publicly recognized the importance of 
diplomacy and development to our national interests, and the 
role of our civil society and private sector couldn't be more 
important in translating policy into action. Collectively, you 
provide a critical commentary for this subcommittee to 
consider, particularly as the House is considering the 
Republican budget resolution which, if it were a real budget 
plan instead of a political document intended to provide 
rhetorical red meat to the base, would place our national 
security at risk by massively reducing nondefense discretionary 
funding.
    By 2025, it would slash important investments in our 
international diplomacy efforts, development programs, and 
lifesaving humanitarian assistance. Your voices need to be 
heard on the impact of your work, the implications for our 
national security, should the SFOP's allocation face a 25 
percent cut.
    I look forward to hearing from you all and thank you for 
the important work that all of you do throughout the world.
    Thank you.
    Ms. Granger. We will now hear from Mr. Howard Kohr. You are 
recognized for 4 minutes. We appreciate all of your hard work 
in ensuring that the strong and steadfast relationship between 
the United States and our longest-standing ally, Israel, is 
maintained.
    Thank you.

  OPENING STATEMENT OF HOWARD KOHR, CEO, THE AMERICAN ISRAEL 
                    PUBLIC AFFAIRS COMMITTEE

    Mr. Kohr. Thank you, Chair Granger, Ranking Member Lowey. 
It is a privilege to be here again to have this conversation 
about this in front of this very distinguished subcommittee.
    I first want to start, first of all, just our appreciate to 
both of you and the members of this subcommittee of the model 
you set, frankly, for the rest of Congress in the bipartisan 
way you work together for the good of our Nation. And it truly 
is a model that should be replicated throughout the rest of 
Congress.
    I also want to take a moment to recognize Anne Marie and 
Steve, excellent staff directors that you each have, for their 
terrific work as well. And I also want to recognize my 
colleague, Ester Kurz, who is here with us today, and does 
remarkable work.
    Since we were last together, there is more instability, 
more chaos, frankly, more dangers in the Middle East. Events in 
Syria, Lebanon, Libya, Iraq, now Yemen, as well as the rise of 
ISIS, a reminder of the dangers that exist in the Middle East, 
as well as Iran's continuing efforts to spread terror and 
instability throughout the region.
    All of this instability and danger impacts Israel, who sits 
in the middle of this chaos. Tens of thousands of rockets and 
mortars and missiles on both Israel's northern border and on 
Israel's southern border, which threaten literally every 
population center in Israel today.
    And that instability, and particularly in Syria, also finds 
its ways to Israel's neighbors, particularly Jordan, as well as 
the growing instability in the region also affects what is 
taking place next door in Egypt as well. That, combined with 
terrorist organizations, such as al-Nusra, the Iranian 
Revolutionary Guard on Israel's doorsteps now, Hamas in Gaza, a 
reminder of the neighborhood that Israel is in.
    And at the same time, Israel is also trying to work with 
the Palestinian Authority who, unfortunately, in this past year 
walked out of negotiations with the Israelis, made an alliance 
with the terrorist organization Hamas, and launched attacks on 
Israel and Israelis leaders at both the United Nations and now 
in the International Criminal Court.
    This subcommittee has long appreciated that the United 
Nations and the U.N. Security Council are not the venues to 
resolve the Israeli-Palestinian conflict. Direct negotiations 
are the path forward, and we hope that you will continue with 
this appreciation in the coming weeks and months.
    And as I stated earlier in my remarks, it is important to 
note--I mentioned Iran earlier--that Iran is--in every one of 
these trouble spots. You can find the Iranians, who continue to 
increase their involvement, spreading terror, anti-Israel, 
anti-U.S. activities here, and instability throughout the 
region. And it is in that context that the negotiations over 
their nuclear program are taking place.
    The P5+1 negotiations, which have been going on now for 18 
months, are scheduled to conclude next week. And though it is 
still not clear that an agreement will be reached, what does 
seem clear at this moment, that is Iran will not be compelled 
to dismantle their nuclear program. It will, at best, be a year 
away from breakout and subject to constraints for possibly only 
a decade or so.
    Congress has been instrumental and members of this 
subcommittee have been instrumental in creating the sanctions 
framework that brought the Iranians to the table, and it is 
important to note negotiations are still the preferred and best 
way forward to resolve this very important problem. We hope 
Congress will continue to be involved in a serious way in 
reviewing and overseeing any agreement that may be reached out 
of these negotiations.
    We also hope that Congress will pass tougher sanctions 
legislation that would go into effect should this round of 
negotiations fail. It is in all of this turbulence that Israel 
remains the one stable democratic ally in this region, and it 
is important to note that whatever personal tensions that may 
exist at the moment between leaders should not cloud the 
strategic needs that are too important to both countries, that 
closely link our two countries here. And that fact should 
overshadow any tensions that exist at the moment. And we 
shouldn't allow these tensions to dominate the discussion at 
the moment.
    USAID, in this context, plays a vital role, providing 
Israel with the weapons to survive and sends a message to our 
shared enemies that the United States stands with her ally.
    So I want to thank you for continuing your support for the 
$3.1 billion request for Israel. I urge your support for this 
request and the many other critical policy provisions that are 
in the bill, as Israel and the United States face the 
challenges of the Middle East together.
    Thank you for this opportunity.
    Ms. Granger. Thank you very much.
    Mrs. Lowey, do you have a question?
    Mrs. Lowey. No, I just want to thank you, and I know the 
Chair and I look forward to working closely with you to ensure 
the strong relationship between Israel and the United States 
because it is so critical to the entire region, in fact, and 
the entire world.
    Thank you for your testimony.
    Mr. Kohr. Thank you.
    Ms. Granger. Thank you for all your hard work, and we all 
think we would certainly welcome a good resolution to this 
conflict.
    Thank you so much.
    
    Mr. Kohr. Thank you very much.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
     
    Ms. Granger. We will now hear from Ambassador Michael 
Klosson. You are recognized for 4 minutes.

     OPENING STATEMENT OF AMBASSADOR MICHAEL KLOSSON, VICE 
                  PRESIDENT, SAVE THE CHILDREN

    Ambassador Klosson. Madam Chair and Ranking Member Lowey, I 
want to thank you for this opportunity to underscore the vital 
importance of American leadership around the world in 
alleviating suffering and also in helping people lift 
themselves out of poverty, and we very much appreciate the 
subcommittee's continued support for robust leadership.
    On a hopeful note, I think the world stands on the 
threshold of launching this September a new set of ambitious 
development goals, and one of them will include a target on 
ending preventable newborn and child deaths by 2030. I think, 
thanks in part to U.S. leadership and which has certainly been 
backed by bipartisan congressional support, child deaths around 
the world have been cut in half.
    We have seen significant reductions, especially in 
countries which USAID-assisted programs, and these are programs 
that are based on cost-effective, efficient, and results-driven 
interventions. And I am sure, as you have seen during your 
visits, these programs not only save lives, but they also build 
local capacity. They share knowledge. They empower women, and 
they actually provide hope for communities.
    This progress, I think, is very inspiring, but the job is 
far from done. Over 6 million children still die each year of 
largely preventable causes, 1 million on the day they are born. 
Just think about that.
    The U.S. and other governments around the world, I think, 
really need to intensify their efforts, particularly for the 
most excluded children who bear a disproportionate share of 
these deaths.
    The good news is this, though, that when the U.S. leads, it 
galvanizes others to act. And we saw that in 2012 when the U.S. 
launched a Call to Action for ending preventable child deaths 
within a generation, 172 nations stepped forward and signed a 
very ambitious pledge.
    Last year, the USAID built on that initiative by hosting 
Acting on the Call, and this was a high-level forum of health 
ministers and also civil society partners like Save the 
Children. And USAID, for the first time, issued an evidence-
based roadmap to save the lives of 15 million children and 
600,000 women by 2020.
    This goal is achievable, but it requires strong support for 
the critical programs we are talking about here today--the 
child survival programs, maternal health programs, and 
nutrition programs. And I am very pleased that the committee 
shortly will be getting a letter from almost one-third of your 
House colleagues, talking about the importance of such funding.
    While we see important progress in tackling child survival, 
when you look around the world, you also see that the number 
and frequency and complexity of humanitarian crises is 
increasing. U.S. assistance, U.S. humanitarian assistance is 
equally indispensible in galvanizing international action, and 
we have seen this as Syria is moving into the fifth year of the 
conflict there where there are 12 million people need 
humanitarian assistance and, most recently, tackling the Ebola 
epidemic in West Africa.
    I think it is essential that Congress continue to provide 
strong support for the humanitarian assistance accounts that 
are necessary to meet these burgeoning needs.
    Like you, I have seen the impact of taxpayer dollars in 
programs that partners like Save the Children operates. And for 
example, there is a Syrian grandmother who fled Syria with her 
five grandchildren when the mother, her daughter, was detained. 
And we spoke with the mother, and she told us that the 
grandchildren, once they got to Jordan, used to wake up 
regularly screaming with nightmares.
    She enrolled them in a school for Syrians in northern 
Jordan, which included a child-friendly spaces program that we 
run and is funded by the Department of State, BPRM. And what 
Hala, the grandmother told us was, and I quote, ``The child-
friendly space literally saved my grandchildren, but not only 
my grandchildren. All the children are much happier because of 
it. It gives them back the loving environment that many 
children are missing since the war.''
    So the U.S. investment in child survival, U.S. investment 
in humanitarian programs, indeed our investment across the 
board in foreign assistance programs, including education and 
food security--and it is only 1 percent of the Federal budget--
are really the right thing to do. And even in times of fiscal 
austerity, it is the smart thing to do for national security 
and economic reasons.
    Now some believe that Americans don't care that much about 
this leadership. I think they do. Last November, for example, 
the President received 20,000 messages on the importance of 
American investment in maternal and child health.
    And next month, scores of young people will come to 
Washington from across the Nation, including from New York and 
Texas, to participate in our advocacy summit. And I think there 
is nothing more inspiring, to see young people taking up the 
cause of vulnerable children around the world, and I hope you 
will have an opportunity to meet them when they are in town.
    In conclusion, we urge continued strong support in our 
foreign assistance and humanitarian accounts. We urge avoiding 
disproportionate cuts so America can continue to lead, and the 
budget cannot and should not be balanced on the back of 
children and poor people. The stakes are too great for them and 
for us as a nation.
    Thank you.
    Ms. Granger. Thank you very much.
    Mrs. Lowey. I just wanted to thank you because it is all 
your supporters and volunteers, that really create such an 
important partnership. It is our pleasure to work with you.
    Thank you.
    
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Ms. Alice Albright. You 
are recognized for 4 minutes.

 OPENING STATEMENT OF ALICE ALBRIGHT, CHIEF EXECUTIVE OFFICER, 
                GLOBAL PARTNERSHIP FOR EDUCATION

    Ms. Albright. Thank you very much.
    Madam Chair, Mrs. Lowey, members of the subcommittee, thank 
you so much for the opportunity to appear before you on behalf 
of the Global Partnership for Education, GPE.
    GPE is the only global public-private partnership devoted 
to ensuring that children in the 60 poorest countries of the 
world have access to a basic education.
    It is an honor to appear before a subcommittee that, with 
bipartisan support, leads in recognizing the importance of 
educating every child and which has set quality basic education 
as a priority and a national security goal of U.S. foreign 
assistance.
    I would like to begin by assuring you that progress is 
being made in basic education. The funding that you have 
provided is working. More children, particularly girls, are in 
school today and learning than in any time in the past.
    National governments are committing more of their own 
domestic resources to education. Even in crisis countries, 
important progress is being achieved.
    Over the past 12 years since the creation of the Global 
Partnership, the number of out-of-school children has declined 
from 110 million to 58 million, dropping by almost half. There 
are more children in primary school today than ever before, at 
185 million. This represents an increase of more than 15 
million in 4 years, 15 million children.
    There are more girls in school. For every 100 boys 
completing primary school, 89 girls now do the same. We have 
got to get it to 100.
    GPE's support to our partner countries over the last 12 
years has helped to get 22 million more children to school, 
including 10 million girls. A few country examples.
    In Afghanistan, which I visited shortly after joining GPE, 
under the Taliban, girls had virtually no access to education, 
and thousands of schools were being destroyed. In 2012, GPE 
approved a $55.7 million grant to the government to support 
getting more children into school, particularly girls, and 
training female teachers to teach in the most remote areas.
    Thousands of schools destroyed by the Taliban have, indeed, 
now been rebuilt. Thousands of teachers have been trained and 
deployed, and 42 percent of all enrolled students are girls. 
This is a long way to go--we still have a long way to go to 
reach gender parity, but there has been vast improvement in the 
last 5 years.
    In Somalia, 75 percent of the country's public schools were 
destroyed in a civil war. Two generations of children grew up 
without access to basic education. Now, for the first time in 
35 years, Somalia has an education strategy and an action plan. 
GPE has financed an accelerated teacher training program that 
has placed 1,000 newly trained teachers into schools in south-
central Somalia.
    In Haiti, where I visited a few weeks ago, GPE's support in 
the aftermath of the earthquake made possible the opening of 
2,800 schools, continued enrollment of 83,000 students in 
nonpublic schools, and school health and nutrition services for 
about 57,000 students.
    Education and health at times converge. In Sierra Leone, 
GPE financed radio education programs for kids that were not 
able to attend school during the recent Ebola crisis.
    Fifty percent of the developing world's out-of-school 
children reside in crisis and fragility. Access to education in 
these settings is hard to achieve but needed for many, many 
reasons, including the potential to counteract extremism.
    A recent example is the Central African Republic. In 
response to this conflict, GPE quickly approved $4 million in 
emergency funding for children that had been displaced by the 
fighting.
    Despite some success, however, there are still 58 million 
that are not in school, and much, much more needs to be done to 
assure that those who are in school are receiving a quality 
education.
    I thank the members of this subcommittee for your strong 
support. I urge the subcommittee to recommend $70 million as 
the fiscal year 2016 contribution to the Global Partnership. We 
will be tremendously grateful. I also urge the subcommittee to 
recommend at least $800 million for basic education overall.
    Thank you, and I would be happy to answer questions.
    Ms. Granger. Thank you. The only question I have is, 
President Ghani said today in his remarkable speech, when the 
United States went into Afghanistan, there were no girls going 
to school. There are now 10 million. So that was exciting.


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 OPENING STATEMENT OF DAVID BECKMANN, PRESIDENT, BREAD FOR THE 
                             WORLD

    Mr. Beckmann. Chairwoman Granger and Ranking Member Lowey, 
members of the subcommittee, I am David Beckmann, president of 
Bread for the World. And mainly, I want to say thank you.
    This committee has managed to increase funding for the 
poverty and development parts of the programs under your 
jurisdiction in each of the last 4 years. And looking back over 
the last 15 years, our Government, in a bipartisan way, has 
increased the quantity and improved the quality of our 
development assistance.
    And that is one of the reasons why the world is achieving 
unprecedented progress against hunger, poverty, and disease. 
You have managed to maintain that bipartisanship and the 
forward movement in a very difficult time.
    So maybe--I am a preacher. So maybe it is not inappropriate 
for me to say that I thank God for this subcommittee. 
[Laughter.]
    I also, Mrs. Lowey and Ms. Granger, I want to thank you. 
You gave us an essay on the empowerment of women for this book, 
and you have been leaders on that issue for a long time. 
Equality for women is really important to make the world better 
for all of us--men, too. And you have been out in front.
    Bread for the World opposes this year's House budget 
proposal from the Budget Committee. The members of this 
committee know well the really terrible damage that this budget 
would do to some of the poorest people in the world.
    Maybe it is impossible, but I urge you to vote against it. 
This is a bad budget. And then, over the course of the year, to 
work over the course of the year to try to fund the health and 
development programs you care about as the negotiations 
proceed.
    Let me also highlight some specific programs about which 
Bread for the World is especially enthusiastic. Since 2009, our 
country has led the world in moving us back onto track toward 
the end of hunger, strong agriculture and nutrition programs. 
We encourage you to continue to fund those programs.
    And specifically, for nutrition, that you put in $200 
million for the nutrition line and then encourage the 
administration to have a serious Government-wide nutrition 
strategy. That is a way to get more bang for the buck out of a 
lot of money.
    There are three things in the administration's request that 
I would like to flag. The Millennium Challenge Corporation, 
they are asking for more money. It is a model of effectiveness 
and transparency.
    They are asking--last year, you put in additional money to 
deal with poverty in Central America. Most of the undocumented 
people are coming into our country from a few countries in 
Central America. They have to run away. So we support the 
administration's request for additional funding for Central 
America.
    And then, finally, I also want to flag the Green Climate 
Fund. Climate change is already disrupting agriculture, food 
production in many of the poorest countries of the world. It is 
one of the most serious threats to the progress against poverty 
that is underway. And so, on this issue, too, our country needs 
to get out and be a leader.
    But finally, again, mainly thank you.
    Mrs. Lowey. Just in case you didn't get the hint, you are 
wonderful. I could make a statement telling you how wonderful 
you are, but if we are going to move forward, just know that 
you are doing----
    [Laughter.]
    Ms. Granger. And we are with you, believe me.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Mr. John Calvelli. You 
are recognized for 4 minutes.

 OPENING STATEMENT OF JOHN CALVELLI, EXECUTIVE VICE PRESIDENT, 
                 WILDLIFE CONSERVATION SOCIETY

    Mr. Calvelli. Good afternoon, Chairwoman Granger, Ranking 
Member Lowey, members of the subcommittee.
    I am not a preacher, but I thank God for this subcommittee 
as well. Just wanted to start with that. [Laughter.]
    Thank you for the opportunity to testify regarding wildlife 
trafficking, global conservation, and related issues on behalf 
of the Wildlife Conservation Society.
    WCS was founded with the help of Theodore Roosevelt at what 
is now the Bronx Zoo, and we have been working to save wildlife 
in wild places for over 120 years and currently work to protect 
25 percent of the world's biological diversity in more than 60 
countries.
    Increasing pressures on natural resources and biodiversity 
loss worldwide are driving scarcity, destabilizing political 
structures, and undermining the basic rule of law. In turn, 
this is attracting large-scale criminal and terrorist-related 
activities around poaching, overfishing, and trafficking.
    U.S. Government investments in international conservation 
promote our national and economic security objectives in 
foreign policy by supporting sustainable livelihoods and 
political stability in these difficult regions of the world. As 
a matter of fact, we also work in Afghanistan and follow very 
closely the work of the new president.
    As an implementing partner of the U.S. Government overseas, 
WCS is closely involved with many development activities that 
promote natural capital that sustains our societies, our 
economies, and the world's ecological systems.
    Thanks in large part to the work of this subcommittee, the 
U.S. Government is a global leader in biodiversity and forest 
and marine conservation investments, which are delivered 
largely through the USAID biodiversity program. These programs 
help protect some of the largest and most at-risk landscapes 
and livelihoods of millions of people who directly depend on 
natural resources for their survival and economic growth.
    Unfortunately, the President's fiscal year 2016 budget 
request does not include a line item for the USAID biodiversity 
program or any of the subaccounts within the biodiversity 
program. WCS recommends that that USAID biodiversity line item 
be restored and funded, along with several other specific 
initiatives, such as the Central African Regional Program, the 
Andean Amazon Conservation Initiative, Guatemala Maya Biosphere 
Reserve, and several others.
    The illegal trade in endangered wildlife products, 
including ivory, rhino horns, pangolins, tiger parts, and other 
wildlife products, is worth at least an estimated $8 billion to 
$10 billion annually. Increasing profits and low deterrence is 
attracting greater involvement of criminal and terrorist 
organizations, including, for example, the Lord's Resistance 
Army--often the same groups involved in trafficking drugs, 
humans, and weapons.
    The killing has reached a crisis stage. In 2012 alone, WCS 
estimates that 35,000 African elephants were poached for their 
ivory, an average of 96 elephants per day or 1 poached every 15 
minutes. Continued poaching at these rates may mean the 
extinction of forest elephants within a decade and possibly of 
all African elephants in our lifetimes.
    And I am here to report that, unfortunately, there is going 
to be more bad news coming out of East Africa that you will be 
getting those reports later this week.
    WCS works in partnership with USAID and the State 
Department to implement anti-poaching law enforcement 
enhancement and capacity-building programs to increase 
investigations, prosecutions, and convictions. The fiscal year 
2015 bill had a congressional directive--again, thank you--for 
$55 million to combat wildlife poaching and trafficking.
    Regrettably, the administration's fiscal year 2016 request 
did not include a similar line item. Congresswoman Grace Meng 
is leading a letter of this subcommittee--to this subcommittee 
and requesting that not less than $55 million be used to combat 
wildlife trafficking.
    And finally, I would like to urge support for the 
President's request of $168.2 million to honor the U.S. pledge 
to the Global Environment Facility.
    I know there are no greater champions for supporting the 
world's biodiversity and combating wildlife trafficking than 
the chair, the ranking member, and the members of this 
subcommittee. You clearly understand that conservation 
investments are in our national security because they assist in 
building capacity, strengthening governance, and stabilizing 
regions prone to conflict and unrest.
    They are in our economic interests by creating good will 
towards the United States and supporting stronger foreign 
markets for American products. WCS is grateful for your past 
support, and we will continue to look for your leadership. We 
are going to need it.
    Again, I appreciate the opportunity to share our 
perspective and recommend critical, but modest funding for 
international conservation in this bill.
    Thank you very much.
    Ms. Granger. Thank you very much.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Mr. Jordie Hannum. You 
are recognized for 4 minutes.

  OPENING STATEMENT OF JORDIE HANNUM, DIRECTOR, BETTER WORLD 
                            CAMPAIGN

    Mr. Hannum. Chairwoman Granger, Ranking Member Lowey, 
members of the subcommittee, I thank you for your past support 
for U.N. and global health funding, and I appreciate you giving 
me the opportunity to testify in support of accounts within the 
fiscal year 2016 State, Foreign Operations appropriations bill.
    I would like to say that at the outset, it is a pleasure to 
be back here on the House side, as I began my career 15 years 
ago as a legislative aide with Congresswoman Connie Morella.
    Today, I would like to highlight support for U.N. 
peacekeeping, the U.N. regular budget, as well as global health 
interventions. Let me begin by mentioning U.N. peacekeeping 
operations.
    As a permanent veto-wielding member of the Security 
Council, the U.S. has final say over all U.N. peacekeeping 
missions. Given its crucial leadership role, it is vital that 
we pay our fiscal year 2016 peacekeeping dues on time, in full, 
and without preconditions. While we understand that budgets are 
tight across the Federal Government, peacekeeping is worth the 
investment. U.N. peacekeeping missions are cost effective, 
having been found by the GAO to be eight times cheaper than 
U.S. forces acting alone.
    The U.N. is also continuing to update its operations to 
better meet evolving challenges. Over the past 5 years, they 
have streamlined operations, resulting in hundreds of millions 
in cost reductions. The U.N. has also established a high-level 
panel to recommend how operations can better address the 
challenges of the 21st century.
    One particularly salient example of the U.N.'s peacekeeping 
work is in South Sudan. Many members of this subcommittee, both 
past and present, played a central role in pushing for South 
Sudan's independence, and I know we are all dismayed by the 
horrific violence that has engulfed the country since December 
of 2013.
    Despite difficulties, the peacekeeping mission is working 
to protect more than 100,000 civilians who have sought shelter 
at U.N. bases to escape the fighting. The peacekeeping 
operation is also working alongside UNICEF and other 
organizations to help end the recruitment of child soldiers in 
South Sudan.
    Over the past 3 months, the U.N. has helped negotiate the 
release of 1,000 child soldiers from a rebel militia, one of 
the largest demobilizations of children ever. These were 9-, 
10-, 11-year-old kids, and they are aiming to free another 
2,000 children in the coming weeks.
    These activities undertaken by the mission demonstrate the 
importance of peacekeeping operations and how they manifestly 
operate in our interest.
    In addition to peacekeeping, engagement with the U.N. 
advances American foreign policy interests on a number of other 
fronts. Via the CIO account, the U.N. administers political 
missions in Iraq and Afghanistan, monitors global compliance 
with Security Council sanctions against Iran, North Korea, and 
al-Qaeda, and coordinates electoral assistance for emerging 
democracies.
    For fiscal year 2016, we are recommending full funding for 
the CIO account, which includes the U.N. regular budget. 
Funding within the account represents burden-sharing, as other 
member states pay nearly 80 percent of the regular budget's 
costs.
    The United Nations plays an equally vital role in enhancing 
our global health policy. The U.N. promotes maternal health to 
protect the lives of 30 million women each year. The U.N. helps 
to vaccinate 60 percent of the world's children.
    Over the years, through these efforts and that of U.N. 
partners, 1 billion children have been immunized against 
measles, and the number of new polio cases has dropped by 99 
percent, leaving the world nearly polio free. And of course, 
our contributions are leveraged with that of the other 192 
member states.
    In short, the work of the U.N. saves millions of lives, and 
its activities to our national security--and are central to our 
national security and foreign policy priorities, including the 
U.S. goal of ending preventable child and maternal deaths.
    For fiscal year 2016, we encourage funding for health 
interventions at the levels outlined in our written testimony.
    Thank you.
    
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Ms. Sue Petrisin. You 
are recognized for 4 minutes.

  OPENING STATEMENT OF SUE PETRISIN, PRESIDENT-ELECT, KIWANIS 
                         INTERNATIONAL

    Ms. Petrisin. Thank you.
    Madam Chairwoman, Ranking Member Lowey, and members of the 
committee, I am Sue Petrisin, the 2014-2015 president-elect of 
Kiwanis International, a volunteer leadership position. I live 
in Lansing, Michigan, and I am here today representing Kiwanis 
and Kiwanis family members in the United States.
    I thank you for the opportunity to testify in support of 
the Eliminate Project, Kiwanis eliminating maternal and 
neonatal tetanus. Tetanus is a preventable disease that kills 
one baby every 11 minutes.
    We are seeking the support of this committee to encourage 
the U.S. Agency for International Development to provide fiscal 
year 2016 funding to eliminate maternal and neonatal tetanus. 
We are also seeking your support to provide $850 million in 
fiscal year 2016 for the overall account for maternal and child 
health.
    On behalf of Kiwanis International, I want to thank you for 
your past and continuing support of our first global campaign 
for children, ending iodine deficiency disorders. I urge you to 
also support our second and current campaign, to eliminate 
maternal and neonatal tetanus from the face of the Earth.
    The Eliminate Project is a global campaign that will save 
or protect millions of mothers and newborns. Maternal and 
neonatal tetanus results when tetanus spores, which are present 
in cells everywhere, enter the bloodstream. The fatality rate 
can be as high as 100 percent in underserved areas, with 
newborns usually dying within 7 days. It is a painful death.
    This terrible disease is highly preventable by giving women 
of childbearing age a series of three vaccine doses, which 
costs roughly $1.80. This cost includes the vaccinations, 
syringes, safe storage, transportation, and more.
    Kiwanis International is committed to raising $110 million 
to immunize more than 61 million women in the 24 remaining 
countries where the disease is still a major health problem. 
Kiwanis' global volunteer network, along with UNICEF's field 
staff, technical expertise, and unbeatable supply chain, will 
help eliminate this cruel, centuries-old disease.
    We have a very effective partnership with UNICEF on MNT and 
urge you to support UNICEF's funding request for $132 million 
for fiscal year 2016. Recently, I traveled to Cambodia as a 
part of a UNICEF delegation to witness their work on the 
ground. I was truly inspired by the women who traveled long 
distances to a local healthcare center.
    As I spoke UNICEF Cambodia team, healthcare workers, 
village leaders, and mothers, it was clear to me that women 
understand the importance of this vaccine. With the tetanus 
vaccine as the entry point, they are also learning about good 
health practices. Tetanus is just the beginning of better 
futures.
    And I want to share a couple pictures with you from my 
visit there of an immunization clinic and a mother and her 
child. I talked with a gentleman who lost his sister and his 
mother to tetanus many years ago but now knows the importance 
of this vaccine and is helping us spread that word. Listening 
to his story only reinforced the fact that there is need for 
support.
    In Cambodia, I spoke with mothers who smile with hope and 
dream out loud that their children will become doctors, 
teachers, and leaders. As an aunt to 16 nieces and nephews, I 
have seen how the right nurturing transforms that potential 
into the reality of young men and women who are the next 
problem-solvers, compassionate caregivers, and world changers. 
I have held that potential in my arms, just as I know the women 
in Cambodia do.
    Together, we can ensure that all women are able to receive 
the tetanus vaccine anywhere in the world. Like mothers 
everywhere, mothers in developing countries want to be sure 
their babies are protected, that they will thrive. Like mothers 
everywhere, they deserve this.
    I can visualize a world without tetanus. The elimination 
plans are in place. Countries are ready for this. All that 
remains is one final funding push, one push to rid this Earth 
of the disease.
    Madam Chairwoman, I ask you to join us in this final push. 
Help us eliminate this terrible disease and ensure that no baby 
suffers this agonizing 7-day death ever again.
    Thank you.
    Ms. Granger. Thank you, Ms. Petrisin.
    Ms. Petrisin. Thank you.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Ms. Victoria Quinn 
Williams. You are recognized for 4 minutes.

   OPENING STATEMENT OF VICTORIA QUINN WILLIAMS, SENIOR VICE 
             PRESIDENT, HELEN KELLER INTERNATIONAL

    Ms. Williams. Thank you very much.
    Madam Chairwoman, Ranking Member Lowey, and members of the 
committee, thank you for the opportunity to appear before the 
committee today in support of programs that prevent blindness 
and improve nutrition in the most vulnerable people across the 
world, especially young children.
    I would like to thank you sincerely and the committee for 
your strong commitment to overall global health programs. Your 
support is truly making a difference.
    Co-founded in 1915 by the deaf-blind crusader Helen Keller, 
Helen Keller International is a leading nonprofit dedicated to 
combating the causes and consequences of blindness and 
malnutrition worldwide. Our programs serve more than 285 
million vulnerable people each year.
    We are making progress, but the need is great. Nearly 39 
million people are blind, most of them living in the developing 
world. Every year, 3.1 million children die because of 
malnutrition. Most blindness and malnutrition is preventable, 
and the solutions are known. They are inexpensive. What is 
needed now is the right level of support.
    Every minute, somewhere a child goes blind. Helen Keller 
International uses cost-effective, proven strategies to prevent 
and treat vision loss. This committee has consistently 
supported a USAID program for blind children in developing 
countries, saving the sight of hundreds of thousands of 
children. I urge the committee to continue funding for blind 
children at a level of at least $3 million for fiscal year 
2016.
    Malnutrition remains a major global crisis, with 2 billion 
people suffering each year from nutritional deficiencies, and 
much of this can be prevented. In Africa and Asia, I have 
spoken with mothers from impoverished communities benefiting 
from USAID's nutrition programs, which HKI implements with 
local partners.
    These mothers have learned healthier feeding practices for 
their children, in addition to simple farming methods to 
increase the amount of nutritious foods they can grow in their 
own family gardens. And as a result, the diets of both women 
and children has significantly improved. Plus, the income of 
these women has increased as they were able to sell the surplus 
food for much-needed cash.
    This is a proven model that not only improves nutrition, 
but empowers women. Therefore, HKI supports the continuation of 
nutrition programs to help young children and women of 
reproductive age and asks the committee to recommend $200 
million under nutrition account within global health for fiscal 
year 2016.
    WHO estimates that 250 million preschool children worldwide 
are vitamin A deficient, putting them at very high risk of 
blindness and death. Vitamin A supplementation is one of the 
most cost-effective child survival interventions we know about, 
costing just a bit over $1 a year per child.
    HKI is a recognized leader in distributing vitamin A 
capsules across the world, and here is a child receiving one of 
the capsules, twice a year between 6 and 59 months. I urge the 
committee to provide at least $23 million for vitamin A during 
fiscal year 2016.
    Good nutrition and good health are closely linked, and we 
also urge the committee to recommend funding of at least $850 
million for maternal and child health in fiscal year 2016.
    Neglected tropical diseases, or NTDs, blind and disable 
people in the world's most poor communities. They infect 1 in 6 
people and trap more than 1 billion people in a cycle of 
poverty and disease. Through USAID's programs and the generous 
support of pharmaceutical manufacturers, Helen Keller 
International has supported mass drug administration in Africa 
that has reached tens of millions. I urge the committee to 
continue funding at least $100 million in fiscal year 2016 for 
NTDs.
    Over the past century, Helen Keller International has saved 
the sight and lives of millions. Today, even after 100 years, 
we are as determined as ever to accomplish even more on behalf 
of women and children and other adults living in developing 
countries.
    And I would like to close with the words of Helen Keller 
herself. ``The welfare of each is bound up in the welfare of 
all.''
    I sincerely thank you for your consideration.
    
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Mr. Bill O'Keefe. You 
are recognized for 4 minutes.

  OPENING STATEMENT OF BILL O'KEEFE, VICE PRESIDENT, CATHOLIC 
                        RELIEF SERVICES

    Mr. O'Keefe. Thank you very much, Chairwoman Granger, 
Ranking Member Lowey, and members of the subcommittee, for this 
opportunity to testify.
    My written statement includes Catholic Relief Services' 
recommended funding levels for specific foreign assistance 
accounts. I will focus today on the development assistance 
account, particularly the request for the Northern Triangle.
    Development assistance funds lift families out of poverty 
and make them more resilient. In Ethiopia 4 years ago, the 
areas where CRS and USAID had invested in integrated watershed 
management withstood serious drought without emergency 
assistance. Investments in water, education, food security, and 
other sectors provide communities the hand up they need.
    The administration has significantly increased its 
development assistance request. Nearly half a billion of this 
is for Honduras, Guatemala, and El Salvador. CRS applauds this 
overdue request.
    We also appreciate this committee's recommendation of the 
need for a holistic response to the flight of unaccompanied 
children and vulnerable families. Children fleeing bear the 
burden of the longstanding political, economic, and social 
crises of their societies.
    Unless the governments there, with the support of the U.S. 
and others, can meaningfully address insecurity, inequality, 
social fragmentation, and lack of opportunity, children in 
vulnerable families will continue to flee. As one mother from 
Honduras told CRS, ``I would rather my child die trying to find 
life in the north than die sitting here.''
    There are no quick solutions. CRS's years of experience in 
peace building show that stopping the violence is only half the 
challenge. Something positive must replace it.
    Peace requires economic and civil participation by all 
stakeholders in society. Communities must reintegrate the 
disaffected, marginalized youth. Even in the poorest, most 
violent neighborhoods, though, youth have the power to change 
their lives and their communities. We must find ways to unleash 
that power.
    CRS urges the U.S. Government to work with key stakeholders 
to ensure that the investments in marginalized and vulnerable 
populations are sufficient to turn the tide. Education, youth 
employment, rural revitalization, and family strengthening 
programs must be scaled up.
    Through a McGovern-Dole Food for Education program, CRS has 
helped to keep 54,000 children in more than 1,000 schools in 
Intibuca, Honduras. By improving the quality of education, 
feeding the children, and ensuring security, attendance rates 
have reached 90 percent.
    We must also help youth find employment opportunities. In 
El Salvador, 80 percent of participants who completed our 6-
month vocation program, Youth Builders, either returned to 
their education or found work with our more than 250 business 
partners. We are currently scaling that up.
    CRS revitalizes rural agriculture in Central America by 
helping small farmers to compete in the global marketplace. In 
Nicaragua, through a USAID-funded $53 million public-private 
partnership, CRS helped more than 7,000 farmers more than 
double their incomes. The same model is now being applied in El 
Salvador, targeting 10,000 cacao farmers.
    Another way to reintegrate and protect youth is to 
strengthen families. Psychosocial programs to teach families 
alternatives to violence, parenting skills, positive 
discipline, stress management, problem-solving skills, and 
communication have been credited with strengthening intrafamily 
relationships and protecting children.
    In addition to addressing what should be funded, we need to 
consider the ``how,'' particularly the role of civil society. 
CRS requests that, one, the U.S. host--the U.S. urge host 
governments to facilitate meaningful participation of civil 
society, such as the civil society consultation conducted for 
the MCC compact in El Salvador.
    Two, the committee requires USAID to be transparent in its 
selection between acquisition and assistance funding 
instruments.
    And three, USAID allow NGOs to use our privately raised 
funds as leverage in global development alliances.
    Thank you very much for this opportunity.
    Ms. Granger. Thank you, and thank your organization for 
your help in the crisis last summer. It came up very suddenly 
for many of us, and we are watching it very carefully this 
year.
    Thank you.
    Mr. O'Keefe. Thank you so much.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Ms. Andrea Koppel. You 
are recognized for 4 minutes.
    Thank you.

OPENING STATEMENT OF ANDREA KOPPEL, VICE PRESIDENT, MERCY CORPS

    Ms. Koppel. Thank you so much, Chairwoman Granger, Ranking 
Member Lowey, for this opportunity to represent Mercy Corps 
before this subcommittee.
    I come to you today with the wish that I had better news, 
that I could tell you that the state of the world's vulnerable 
people is better off this year than it was last. But 
unfortunately, that is not the case. The numbers tell a very 
different story.
    Today, there are 51 million displaced people around the 
world, the highest number since the end of World War II. And 
so, we were disappointed and surprised by the administration's 
fiscal year 2016 request with respect to IDA and MRA, which 
were cut by 25 percent, and hope this subcommittee will once 
again respond appropriately and generously by restoring funding 
to those two very important accounts.
    Specifically, we are requesting $2.5 billion for IDA and 
$3.3 billion for MRA, which we believe is the appropriate 
amount to meet the needs of the vulnerable people around the 
world. I would like to assure you that those funds are going to 
very good use around the world in countries like Afghanistan in 
helping to reintegrate refugees and internally displaced people 
back into their communities.
    One important side note. While we are very proud partners 
of the State Department in Afghanistan, we have stopped 
accepting funding from USAID. And that is due to their partner 
vetting program, the PVS program, which requires certain steps 
that we would need to take in terms of gathering information 
from various partners that we have that we believe would put 
our staff and our beneficiaries' lives in danger.
    We greatly appreciate this subcommittee's efforts to 
improve PVS and hope that in the fiscal year 2016 bill, you 
will continue to encourage USAID to develop more appropriate 
mechanisms, including allowing for direct vetting options in 
Afghanistan.
    Again, while we are extremely grateful for the continued 
support for humanitarian accounts, and I hope that I, myself, 
or my colleagues are not back before this subcommittee 5 or 10 
years from now making similar requests. We know that the world 
is--you know, large political crises continue to capture the 
headlines.
    Having said that, we believe that there are smarter, more 
efficient, and effective investments in development that we 
believe will build resilience of vulnerable communities so that 
this subcommittee won't need to continue to fund humanitarian 
accounts at the same high levels.
    Specifically, we believe investments in resilience and in 
the DA Food for Peace IDA and ESF accounts are the way to 
achieve this, and we urge you to fund these accounts at the 
President's request. While I was in Ethiopia earlier this 
month, I saw firsthand resilience in practice through a USAID-
funded Food for Peace and Global Climate Change program that 
Mercy Corps is leading the implementation of.
    PRIME, as it is called, is designed to support resilience 
among pastoralist communities. They comprise about 12 to 15 
percent of all of Ethiopia's population. And as you know, many, 
many years, year after year, they are hit the hardest by the 
droughts.
    In my visit to the remote Somali region of Ethiopia, I saw 
how PRIME has taken a holistic approach, mapping on the one 
hand 8 million hectares of rangeland with the pastoralists and 
with the local government, and by taking a market-driven 
approach to connecting those pastoralists, who herd camels, 
cows, goats, and sheep, with livestock traders, who we have 
also helped to connect with major meat buyers. In places like 
the UAE and Egypt and places as far away as Russia, there is an 
insatiable demand for meat in some of these places.
    We have also facilitated support for small and large 
enterprises, including a giant new slaughterhouse and the 
Berwako milk processing factory, which is now selling camel's 
milk. It is the only such factory in Ethiopia. These ventures 
alone will improve the incomes for tens of thousands of 
Ethiopian families.
    And as for the camel's milk, I am happy to report, other 
than a slightly sooty taste, it is delicious. Sooty, they put 
soot in it to--they like the taste of soot. But I will tell 
you, it is absolutely delicious, and maybe one day we will see 
it for sale here in the United States.
    Lastly, as I know this subcommittee continues to be 
concerned with aid effectiveness, I hope you can support the 
administration's request for $80 million for the Community 
Development Fund, CDF. This program, funded out of the DA 
account, provides cash resources for food security programs, 
and as you make the tough decisions in the days ahead, I want 
you to know that the resources for food, for CDF programs 
significantly increases the return on investment as we save 
approximately 25 cents on the dollar when we are not forced to 
monetize within our food security programs.
    Thank you again for your leadership, your time, and your 
consideration of all of these requests.
    [The information follows:]
    
    Ms. Granger. Thank you very much.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Dr. Dan Davidson. You 
are recognized for 4 minutes.

 OPENING STATEMENT OF DAN DAVIDSON, PH.D., PRESIDENT, AMERICAN 
              COUNCILS FOR INTERNATIONAL EDUCATION

    Mr. Davidson. Madam Chairwoman, Congresswoman Lowey--thank 
you for allowing me once again to present on behalf of the 
American Councils for International Education.
    I am requesting that the subcommittee recommend funding in 
fiscal year 2016 of $630 million for the State Department's 
Bureau of Education and Cultural Exchanges account. I also urge 
your increased support for assistance for Eastern Europe and 
Eurasia, where renewed bloodshed, immense social dislocation, 
and serious potentially long-term political divisions have now 
occurred.
    I have worked in Russia, Ukraine, Eurasia as a scholar, 
teacher, and director of many assistance programs over the past 
40 years. I am president of American Councils, a nonprofit 
organization that administers a large portfolio of exchange and 
educational development programs, primarily for the U.S. 
Department of State, in Eastern Europe, Eurasia, Afghanistan, 
China, Africa, and the Middle East.
    Congress has played a vital role in defining our national 
goals in critical world areas through the support of well-
coordinated exchange and development programs linking effective 
people-to-people exchange with research and developmental 
initiatives to help nations advance positive social and 
economic change. The FLEX program, created by Bill Bradley and 
Jim Leach, for Eurasia, and the YES program established by Ted 
Kennedy and Dick Lugar for nations with significant Muslim 
populations were born, as you know, in this very building.
    The FLEX and YES programs, whose alums now approach 40,000 
around the world, have come to serve as highly visible models 
of transparency, inclusiveness, and acceptance of ethnic 
diversity, innovation, and physical challenge, acceptance of 
physical challenges. They have created real access to 
opportunities which previously were available only to those 
with political connections.
    In that respect, the FLEX and YES programs represent 
American values and ideals in action, rather than as words on a 
page. Moreover, exchange alumni take an increasingly important 
role in their home countries and governments.
    Our outbound programs to these same critical regions for 
U.S. students, teachers, and scholars have, in turn, ensured 
that America's own capacity to engage with a rapidly changing 
world is preserved. Our own national security and global 
competitiveness depend on our ability to understand and engage 
people with diverse histories, cultures, policies, economies, 
and languages.
    In that respect, I want to take note that this portfolio of 
programs has recently been evaluated in a publication by 
Georgetown University Press just released this week. You will 
see the results are unprecedented in U.S. education, thanks to 
the U.S. investment in overseas training.
    I want to particularly thank this committee for its long-
term support of the Title VIII research and training program 
for Eastern Europe and point out that the Title VIII program 
has never been more critical for our U.S. national security 
interests than it is today.
    I want to comment on the U.S. technical assistance programs 
that have brought transparent, merit-based testing to 
Kyrgyzstan, Georgia, and Ukraine, and point out that the 
Ukrainian government has just requested urgent support in the 
area of transparency of educational administration, a step that 
would immensely help Ukraine in its integration process with 
Europe and the United States.
    And finally, to take note that the European Humanities 
University, which, as you may remember, was expelled from 
Belarus in 2004 by President Lukashenko, has been able to 
relocate in Lithuania over the past few years and set up 
operations in Vilnius as an accredited European university that 
is 95 percent Belarus. It is truly preparing a new generation 
of leaders for the nation of Belarus, but it is still highly 
deserving of our support.
    It is a rare example of transatlantic cooperation, U.S. and 
EC cooperation in the defense of academic freedom and a 
democratic state.
    Thank you so much for your attention and for the invitation 
to present.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Dr. Joanne Carter. You 
are recognized 4 minutes.

 OPENING STATEMENT OF JOANNE CARTER, DVM, EXECUTIVE DIRECTOR, 
                 RESULTS/RESULTS EDUCATION FUND

    Dr. Carter. Chairwoman Granger, Ranking Member Lowey, and 
members of the subcommittee, on behalf of our grassroots 
volunteers in RESULTS in over 100 U.S. communities, first just 
a real thank you again for your incredible leadership and also 
your bipartisan support for these programs that save lives and 
transform them.
    And I am going to focus my remarks on just a few key global 
health and basic education investments. So yesterday was World 
TB Day. So it seems appropriate to start with that, and 
particularly because of this subcommittee's incredibly 
important leadership on tuberculosis through our bilateral 
programs in the Global Fund.
    TB still kills 1.5 million people a year. It is the single 
largest--it is the killer of--infectious killer of adults on 
the planet, of a curable disease. And data released just 
yesterday shows that if we do nothing, if we don't act on TB, 
that we could see TB responsible for a quarter of all 
antimicrobial resistance in the next 35 years, 75 million 
potential deaths.
    Again what this kind of shows is that the biggest driver of 
antimicrobial resistance is not some brand-new superbug. It is 
tuberculosis. And I raise this because the two most important 
sources of external financing for TB in the world are 
appropriated by this subcommittee, USAID's bilateral funding 
and the Global Fund, our contribution.
    We say an allocation of $400 million for bilateral programs 
would make a huge difference in being able to ramp up our 
response to TB, including new tools. And you all have been 
remarkably important supporters for the Global Fund. So I would 
just, again, reinforce that we believe it is really critical to 
maintain the Global Fund's funding for 2016 at the fiscal year 
2015 level of $1.35 billion.
    And for two reasons on that. There are several billion 
dollars worth of unmet of quality approved programs for the 
Global Fund that can't be funded with the resources available 
to the Global Fund now. And secondly, that the Global Fund is 
going to have its replenishment in 2016, and probably the first 
and single most important kind of signal from the U.S. about 
what we will do and our leadership will be our fiscal year 2016 
appropriation.
    And I would just say very briefly in two other areas. On 
maternal and child health, I would just echo what Ambassador 
Klosson said, which is because of the leadership of this 
subcommittee, we are at a point where we can actually see our 
way to the end of preventable maternal and child deaths.
    USAID's 2014 Acting on the Call report is a roadmap. USAID 
has taken some very bold steps to improve and increase the 
impact of its investments. So we now have the tools, and we 
have never been better positioned to deliver on this goal. So I 
would just echo what some colleagues have called for and urge 
you to provide $850 million for maternal and child health 
programs, including $235 million for GAVI.
    And finally, again echoing what my colleagues have called 
for because partly because we have been so successful on things 
like measles and malaria, under-nutrition now is an underlying 
cause of nearly half of all under 5 child deaths. So the 
importance of $200 million of funding for nutrition is 
absolutely key.
    And then, finally, I just want to thank the subcommittee 
for your leadership. And really, you are responsible, more than 
anyone else, in making the U.S. a leader on education. And I 
would specifically around your support for the Global 
Partnership for Education not just as a centerpiece of the 
response, but an amazingly important leverage.
    Last year at the Global Partnership for Education's 
replenishment, countries themselves, developing countries 
committed $26 billion of resources for education. So that is 
amazing leverage for a very small amount of resources from us. 
So I would actually urge you to consider funding the GPE at an 
even slightly more ambitious level of $125 million because $125 
million for a $26 billion leverage is really pretty great.
    And just to end by saying thank you for your remarkable 
bipartisan leadership, and we are really committed with our 
grassroots across the country to supporting that and supporting 
your work.
    Thank you.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Daniel Stoner. You are 
recognized for 4 minutes.

  OPENING STATEMENT OF DAN STONER, CO-CHAIR OF THE EXECUTIVE 
         BOARD OF DIRECTORS, BASIC EDUCATION COALITION

    Mr. Stoner. Madam Chair, Ranking Member Lowey, I am pleased 
to testify on behalf of the Basic Education Coalition, a group 
of 18 humanitarian and development institutions dedicated to 
ensuring that the world's children receive a quality basic 
education.
    My name is Dan Stoner, and I am co-chair of the coalition's 
board of directors and Associate Vice President of Education 
and Child Protection at Save the Children.
    The members of the Basic Education Coalition are 
appreciative of the committee's continued support for 
international basic education programs, and we thank you for 
your strong and consistent leadership in providing hope and 
opportunity to children around the world.
    For fiscal year 2016, the coalition recommends a U.S. 
investment of $800 million in international and basic education 
programs, with at least $600 million of that coming from the 
development assistance account.
    Throughout my career, I have had the opportunity to see 
countless schools and meet with teachers, students, and 
parents. They all want the same thing. They want their children 
to learn. From the Ethiopian subsistence farmer who volunteers 
his time to give children extra tutoring on reading to the star 
sixth grader from Bangladesh who speaks out against teacher 
violence, the children and their communities want more and 
better education.
    These children will become the future teachers and leaders 
if we support them. With strong global support and a clear U.S. 
strategy, we have the opportunity to build on the tremendous 
progress that has been made with the resources allocated by 
this committee.
    Overall, the number of children who are out of school 
around the world has dropped by almost half from 107 million in 
1999 to 57 million today. Since 1999, the number of children 
enrolled in preschool has risen by almost half. Great strides 
have also been made to improve gender equality, with girls 
enrollment rising to over 90 percent in 52 countries.
    We have seen great progress at the country level as well. 
For example, in Afghanistan, there were fewer than 1 million 
students in primary school in 1999. Now there are more than 8 
million, 5 million of whom are enrolled in schools with USAID 
assistance.
    In many sub-Saharan African countries, more than twice as 
many students are entering the first grade, compared to a 
decade ago. Ethiopia has made great progress in getting 
children to school on time, increasing rates from 23 percent in 
1999 to 94 percent in 2011.
    Since 2006, countries like the Lao People's Democratic 
Republic, Rwanda, and Vietnam have reduced the out-of-school 
populations by 85 percent. Though great gains in global 
education have been made, much remains to be done. Currently, 
57 million primary school age children and 69 million 
adolescents are out of school.
    In addition, 250 million children, or a staggering 40 
percent of the world's primary school age population are 
failing to learn the most basic skills. The world community has 
failed every child who is left out of school or sat in a school 
not learning anything.
    USAID has played a critical role in shining the light on 
this global learning crisis, and we now know that the impact of 
education cannot be measured by the number of students 
enrolled, but by improved learning outcomes. USAID-funded early 
grade reading assessments have helped focus the world community 
on what works and what does not work when it comes to improving 
children's learning.
    The evidence being produced by USAID-supported programs is 
convincing governments and other U.S. Government agencies, such 
as USDA McGovern-Dole Food for Education, to invest in 
confronting this learning crisis.
    USAID is also working to extend access to education to at-
risk children in conflicts and crisis situations. USAID is 
working with partners in Syria and surrounding refugee 
countries to ensure access to educational programs, in addition 
to lifesaving health and counseling services.
    In Afghanistan, programs are working to reverse the impact 
of the Taliban regime on young girls by increasing the number 
of qualified teachers, raising girls' school attendance, and 
working directly with the ministry to create gender-sensitive 
policies and procedures.
    In Sierra Leone, programs have helped to increase access to 
psychosocial education, providing vocational training to former 
students, soldiers, and unaccompanied and internally displaced 
children, children of adult amputees and teenage mothers.
    In conclusion, we have the benefit of a strong 
congressional support, a clear USAID strategy on education, 
innovative solutions, and strategies that directly address 
country needs. We have the opportunity for deeper and more 
sustainable impact on the lives and hopes of the world's poor 
children. The Basic Education Coalition looks forward to 
working with the subcommittee and Congress to ensure that 
quality basic education remains a pillar of our foreign 
assistance.
    Thank you for your continued support.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Granger. We will now hear from Mr. William Millan. You 
are recognized for 4 minutes.

  OPENING STATEMENT OF WILLIAM MILLAN, SENIOR POLICY ADVISER, 
                       NATURE CONSERVANCY

    Mr. Millan. Thank you, Madam Chairman.
    Thank you, Madam Chairman, Ranking Member Lowey, members of 
the committee. It is a pleasure to be here representing the 
Nature Conservancy today.
    Summarizing my remarks, I would say that you know us well, 
of course. We are in all 50 States. We are in 38 foreign 
countries. We have traditionally been the largest and most 
active group in Latin America and the Caribbean, and that 
remains an area of importance for us.
    We are also very active in the Western Pacific Islands. We 
have a large program in Indonesia. We have a program in China, 
and in the last 5 or 6 years, we have greatly strengthened and 
expanded our efforts in Africa.
    If there were time, I would love to say more about our 
efforts in northern Kenya, for example, at the Northern 
Rangelands Trust, where we are helping local people to improve 
the grazing and do a better job of selling their cattle.
    Our mission statement says that we support the land and 
waters upon which all life depends. And life emphatically 
includes humans. So we know that unless the local humans are 
doing well, the local wildlife is very unlikely to do well.
    We support American soft power. Therefore, we hope and we 
urge that the Function 150 account does well this year. But 
naturally, our highest priority is related to our own direct 
mission. And in that regard, I would support the comments by my 
colleague from the Wildlife Conservation Society, John 
Calvelli, about the importance of the core conservation account 
at USAID, which has recently been funded at $250 million.
    This is a set of issues which has enjoyed your broad 
bipartisan support for years, and we are grateful for that. We 
hope that the committee will once more make it be--find it 
possible to fund that account at the current level. Given the 
difficult budgetary situation, it is probably too much to hope 
for to squeeze out even a tiny increase. If you can manage to 
flat-line it, we will be very, very happy.
    We also strongly support the $55 million of special money 
for wildlife trafficking, which you have put in in the recent 
year, and we hope that is continued. The conservation accounts 
are only 1 percent of the foreign assistance accounts, but they 
are some of the best things that are done by U.S. foreign 
assistance as a long-term investment. They are supported by the 
head of the CIA, the Chairman of the Joint Chiefs, and numerous 
American presidents. So we hope that this goes well.
    Finally, in closing, I feel that we have to say a word 
about climate. We realize that this is a heavier lift. It is 
more contentious. But our conservation scientists tell us that, 
ultimately, global warming and climate change are a deadly risk 
to our conservation mission.
    So we hope that the committee and the Congress will find it 
possible to continue to fund the climate investment funds and 
to find something for the new Green Climate Fund. Perhaps not 
$500 million. That would, indeed, be miraculous. But something 
to get our toe wet and, more to the point, to maintain U.S. 
influence in that body so that it is well managed.
    Thank you, Madam Chairman. And if there is time, I would be 
delighted to answer any questions.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Mr. Bryan Ardouny. We will hear from you next.

    OPENING STATEMENT OF BRYAN ARDOUNY, EXECUTIVE DIRECTOR, 
                  ARMENIAN ASSEMBLY OF AMERICA

    Mr. Ardouny. Chairwoman Granger, Ranking Member Lowey, and 
distinguished members of the subcommittee, good afternoon.
    On behalf of the Armenian Assembly of America, I very much 
appreciate the opportunity to testify today.
    Established in 1972, the Armenian Assembly, with a network 
of State chairs and activists across the country, seeks to 
strengthen U.S.-Armenia and Armenian-Karabakh relations. We 
strongly encourage Members, especially on the centennial year 
of the Armenian genocide, to travel to Armenia to see firsthand 
the realities on the ground and the ongoing impact of the 
Turkish and Azerbaijani blockades on Armenia.
    Despite Turkey's public commitment in 2009 to normalize 
relations with Armenia, the Turkish government has failed to do 
so. In fact, both former Secretary of State Hillary Clinton and 
current Secretary John Kerry have indicated that the ball is in 
Turkey's court. However, instead of moving forward, no concrete 
steps have been taken, with Turkey seeking to add new 
conditions.
    We must ensure that the last closed border in Europe is 
open and urge the subcommittee to include report language 
requiring a full accounting of the steps the United States has 
taken and the responses therein to eliminate the Turkish and 
Azeri blockades.
    In terms of funding priorities for the fiscal year 2016 
bill, the assembly urges the subcommittee to allocate $40 
million in assistance to Armenia. Continued and robust 
assistance helps to offset the impact of the blockades imposed 
by Turkey and Azerbaijan.
    Despite these blockades, Armenia continues to make 
important strides, often under challenging circumstances, and 
was ranked 52nd out of 178 countries on the Wall Street 
Journal-Heritage Foundation's 2015 Index of Economic Freedom.
    Armenia also met the eligibility requirements under the 
Millennium Challenge Corporation, of which we strongly support 
a second compact. We also support the administration's request 
for FMF and IMET to Armenia and also support targeted 
assistance to the Armenian population in the Javakhk region of 
Georgia.
    As for assistance to Nagorno-Karabakh, for a relatively 
small investment of $5 million, we can make a significant 
difference in the everyday lives of its people. Funding will 
help support ongoing humanitarian and development needs, 
including demining and drinking water projects.
    With respect to the Nagorno-Karabakh peace process, we 
remain deeply concerned about the ongoing ceasefire violations 
and provocative actions by Azerbaijan. The assembly, therefore, 
urges the subcommittee to fully reinstate Section 907 of the 
Freedom Support Act and to cease military assistance to 
Azerbaijan.
    In addition, the assembly strongly believes that the 
Nagorno-Karabakh participation in the negotiations should be 
restored, as any solution to the conflict requires the consent 
of its people and leadership.
    Turning to the Middle East and minorities at risk, we share 
the concerns of the members of the subcommittee in terms of the 
ongoing unrest and violence. In Syria, we were especially 
troubled by the destruction of the Armenian Genocide Memorial 
Church in Der Zor.
    With many Syrian-Armenian families forced to flee to 
Armenia, we urge the subcommittee to direct the State 
Department and USAID to allocate additional funds to Armenia as 
it seeks to absorb refugees from Syria, as well as implement 
measures to ensure that gaps in distribution of relief aid are 
addressed so that all those in need of urgent humanitarian 
assistance are reached.
    Finally, we urge the subcommittee to include report 
language that makes it clear that minority communities, 
wherever they may reside, shall be afforded protection and 
safeguarded. Simply stated, there has to be a place for 
Christians to live safely in the Middle East.
    Thank you.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Kate Nahapetian. You are 
recognized for 4 minutes.

   OPENING STATEMENT OF KATE NAHAPETIAN, GOVERNMENT AFFAIRS 
        DIRECTOR, ARMENIAN NATIONAL COMMITTEE OF AMERICA

    Ms. Nahapetian. Chairwoman Granger, Ranking Member Lowey, 
distinguished members of the subcommittee, thank you very much 
for giving us this opportunity to testify before you today on 
behalf of the Armenian National Committee of America.
    The U.S.-Armenia relationship has a very long and proud 
history, actually dating back to the 1600s when Armenian silk 
farmers were invited to the Jamestown settlement. The U.S.-
Armenia relationship continues to grow.
    I would like to touch on five priorities, which will 
promote U.S. interests in the region, which are continued aid 
to Nagorno-Karabakh, conditioning military aid to Azerbaijan to 
its acceptance of the OSCE calls to pull back their snipers and 
a commitment to a purely peaceful resolution of the conflict, 
aid to Armenia, the need to address the difficulties in getting 
assistance to Armenians, Assyrians, and other at-risk 
minorities in Syria, and aid to the Javakhk region of Georgia.
    We are asking for at least $5 million in humanitarian and 
development assistance to Nagorno-Karabakh. For more than a 
decade and a half, the U.S. Government has been providing 
assistance to Nagorno-Karabakh, which has a long history of 
bipartisan support. Many credit the Karabakh Armenians with 
helping bring down the Soviet Union. It was their peaceful 
protests that inspired others in the Soviet Union to fight for 
their self-determination and democracy.
    Ironically, they continue to be denied the freedom they 
helped millions of people gain. Karabakh suffers one of the 
highest per capita landmine accidents in the world. Last year, 
there were several accidents. Tragically, two people were 
killed. We urge the subcommittee to expand this vital 
assistance which is saving lives, especially considering 
Karabakh's continued gains in democracy.
    Freedom House has consistently rated Karabakh higher than 
Azerbaijan and on par with Georgia and Armenia on democracy 
indicators. The most recent presidential elections in Karabakh 
in July 2012 were favorably received by more than 80 
international observers from two dozen countries, including the 
United States. The former attorney general of Rhode Island was 
one of those international observers.
    Second, we urge the subcommittee to condition military aid 
to Azerbaijan. It does not serve our national interests nor 
advance our values to provide aid to a military whose 
leadership frequently threatens to renew aggression. Last year 
was the deadliest since the ceasefire over 20 years ago. Over 
60 people were killed.
    This year, Azerbaijan's attacks became too egregious and 
deadly to ignore. In an unusual rebuke, the OSCE Minsk Group 
issued a statement this January reminding Azerbaijan to observe 
its commitments to a peaceful resolution of the conflict. 
Deadly violations subsided but were renewed last week.
    Azerbaijan will respond to international pressure, but it 
has to be sustained, and a first step would be to suspend 
military aid until it agrees to the OSCE call to pull back its 
snipers. Armenia and Karabakh have agreed to this proposal. 
Azerbaijan continues to oppose it.
    Azerbaijan's regional aggression is closely tied to its 
brutal crackdown on dissent. It has raided and shut down Radio 
Free Europe's offices, deliberately frustrating the purposes of 
this very subcommittee. It has unjustly imprisoned several 
civil society leaders. By some accounts, there are 90 political 
prisoners in Azerbaijan.
    Our next priority is for at least $40 million in assistance 
to Armenia. Armenia is a crucial ally in a strategic region of 
the world. It has extended robust for U.S.-led peacekeeping 
deployments in Afghanistan, Iraq, and Kosovo and is cooperating 
with the U.S. on a broad range of regional and security issues.
    In 2011, as countries were pulling out of Afghanistan, 
Armenia actually tripled its troop deployment there. It 
continues to extend its hand to the West. Last year, Armenia 
scrapped its visa requirements for all American citizens.
    Furthermore, it is extending its hand to the European 
Union. The French Ambassador in Yerevan just this week spoke of 
``quite positive atmosphere'' on that sphere.
    Intel, Microsoft, IBM, National Instruments, and Synopsys 
are all investing in Armenia because they see a promise there. 
At the same time, the people of landlocked Armenia continue to 
face the devastating impact of Turkey and Azerbaijan's over 20-
year economic blockades. Our assistance has played a vital role 
in helping alleviate these blockades.
    It is for this reason we ask the subcommittee to 
appropriate no less than $40 million for economic aid.
    Thank you very much.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. I apologize votes have been called. We will 
have to go and vote. Time has expired, and they are holding it 
for us. We will come back after votes.
    Mr. Ruppersberger has just voted. So we will go ahead with 
your comments, and I will vote, and come back down. Thank you.
    [Pause.]
    Mr. Ruppersberger [presiding]. You may start.

  OPENING STATEMENT OF METODIJA A. KOLOSKI, PRESIDENT, UNITED 
                      MACEDONIAN DIASPORA

    Mr. Koloski. Thank you, Chairwoman Granger, Ranking Member 
Lowey, and members of the subcommittee.
    It is a sincere privilege to be here on behalf of the 
United Macedonian Diaspora, the voice of half a million 
Americans of Macedonian heritage.
    In fiscal year 2011, U.S. aid to Macedonia was $27.5 
million. The fiscal year 2016 request is for $11.3 million, a 
serious dramatic decrease in just 5 years.
    Our community is very concerned that the level of funding 
being offered to Macedonia does not accurately reflect the 
close relationship between the two allies, especially given the 
May 2008 U.S.-Macedonia strategic partnership agreement. We 
call on a full evaluation by your subcommittee.
    In 1991, Macedonia peacefully declared independence from 
Yugoslavia with no bloodshed. Its southern neighbor Greece, who 
opposes its name, Macedonia, which is now recognized by 125 
countries, including the U.S., imposed a crippling economic 
embargo for 3 years.
    At the time, 70 percent unemployment rate. Today, it is 27 
percent. However, Macedonia is still feeling the effects of the 
embargo 20 years later.
    Unfortunately, at the U.N., Macedonia is known as the 
Former Yugoslav Republic of Macedonia, which is like calling 
the U.S. ``the Former British Colonies of America.'' In 1994, 
the U.S. recognized Macedonia and since has spurred tremendous 
development and growth in the country, providing over $1 
billion in aid.
    We believe the U.S. is Macedonia's number-one friend, and 
Macedonia is where it is today largely thanks to U.S. support. 
I just want to highlight a couple of successes from USAID.
    In 2005, thanks to USAID funding and providing of over 
6,000 computers to the school system there, Macedonia became 
the first fully wireless country in the world. And as a result 
of a partnership between several civil society organizations 
and our organization, we were able to renovate 123 schools, 
which virtually, you know, at one time didn't even have 
bathrooms as a result of the situation in Communist Yugoslavia.
    I also want to highlight that USAID funding has helped 
improve status of women and minorities. From business reforms 
to the introduction of micro financing, new doors have been 
opened to close both gender and ethnicity divides. Projects in 
the areas of economic growth, local government, education, 
anti-trafficking reforms have all seen the condition of 
minorities and women improve greatly.
    Much work remains to be done, especially in the ethnic 
integration of schools, improving youth employability, and 
education issues in the Roma community.
    I also want to highlight that there is still a lot of work 
to be done, particularly in terms of getting more women 
involved in local and national politics. Out of 80 or so 
mayors, only 4 are women. Out of 123 parliamentarians, 31 are 
women. And out of 25 government ministers, 2 are women.
    USAID projects are improving competitiveness, creating 
investment development, introducing agribusiness technology, 
enhancing micro finance development, and eliminating barriers 
to start businesses. These projects are vital to ensuring the 
development--the future of Macedonia's development.
    USAID has funded projects implementing judicial reform, 
strengthening civil society, and modernizing the Macedonian 
judiciary. However, work remains in the areas of improving 
functioning of the judicial branch, increasing transparency, 
fighting corruption, improving the functioning of parliament, 
which has been boycotted by the opposition in the country for 
the last year, 2 years.
    But I do want to highlight the efforts of International 
Republican Institute and the National Democratic Institute in 
helping modernize parliament there.
    On military aid, Macedonia's strategic priority is NATO 
membership. In 1999, Macedonia opened its borders to 400,000 
refugees from Kosovo, and it hosted a logistic support center 
for KFOR the same year Macedonia earned NATO Membership Action 
Plan.
    Following 9/11, Macedonia pledged troops to U.S.-led 
efforts in Afghanistan and later Iraq. In Afghanistan, 
Macedonian troops patrolled the ISAF headquarters and provided 
the fourth and fifth largest troop contribution per capita to 
the NATO mission there.
    In 2008, Macedonia met the requirements for NATO membership 
and was to be invited to join NATO at the Bucharest summit. But 
Greece, the only country to oppose, vetoed. And in 2011, the 
ICJ found Greece in violation of international law over this 
act but has still to implement the decision and withdraw its 
hold on Macedonia's NATO membership. Macedonia can protect the 
tent of NATO but cannot sleep in it.
    Currently, a bipartisan House Resolution 56 calls for 
furthering U.S. support for Macedonia's NATO membership. We 
believe Congress can, should play a role in sending a positive 
message to Macedonia that the U.S. has not forgotten its 
friendship.
    As the situation in Ukraine continues to degrade, Russia 
has been exerting increased influence in the Balkans via 
Greece, Serbia, Bosnia, Republika Srpska, and Montenegro. A 
recent CEPA article explained how the stall in NATO enlargement 
is playing right into Putin's hands by destabilizing the 
Balkans and leaving people frustrated, with the West looking 
East for guidance.
    Furthermore----
    Mr. Ruppersberger. I'm sorry, you will have to wrap it up--
--
    Mr. Koloski. Sure. And I just want to highlight that the 
threat of Islamic radicalization in terms of the growing number 
of people from the region joining the Islamic state as foreign 
fighters, including Macedonia, is concerning.
    And last, but not least, we are very concerned with the 
proposed eliminating of Voice of America Macedonian service 
because we believe that there is a need for a strong U.S. sort 
of media presence, particularly with Russia and what is going 
on today.
    Mr. Ruppersberger. In my former role on intelligence, I 
have worked with Macedonia security issues on cybersecurity 
attacks.
    Mr. Koloski. Excellent. Great. Well, thank you.
    Mr. Ruppersberger. We are going to have to recess. We have 
got to go up for the second vote.
    [Whereupon, at 4:26 p.m., the subcommittee was recessed, to 
reconvene at 4:45 p.m., the same day.]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Granger [presiding]. We will call the hearing back to 
order. And we will now hear from Ms. Jeanne Bourgault. You are 
recognized for 4 minutes, and thank you for your patience.
    Not that you had a choice, but I still thank you.
    [Laughter.]

   OPENING STATEMENT OF JEANNE BOURGAULT, PRESIDENT AND CEO, 
                           INTERNEWS

    Ms. Bourgault. Thank you, Madam Chairwoman.
    I am very pleased to be testifying in front of you. So I am 
glad. I was happy to wait, and I appreciate the opportunity to 
testify on behalf of Internews on the importance of access to 
quality, trusted news and information to empower communities, 
hold governments accountable, and to amplify American 
approaches to diplomacy and national security.
    We are very, very grateful for your support to these 
programs, and we urge you to continue funding media and 
democracy programs generally in fiscal year 2016.
    Internews is an international nonprofit organization. We 
have worked in over 90 countries and trained more than 90,000 
journalists and other information professionals in the past 33 
years. We are now active in countries ranging from Afghanistan 
and Burma to South Sudan and Ukraine, working with local 
partners in pursuit of a better world.
    This afternoon, I would like to focus on three major 
points. The first is a need for increased investments in 
democracy programs, including support to independent media and 
moderate voices. Second, the power of engaging women in media 
and information globally. And third, the extraordinary results 
that support from media has in the global health sector.
    Independent media and open information systems are 
essential to democracy in the 21st century. With over 6 billion 
mobile phones and over 2 billion people on the Internet 
globally, these issues have become both more challenging and 
more exciting.
    We are particularly encouraged by the interest of Congress 
and the administration to invest in Central America to 
comprehensively address violence, poor governance, and lack of 
economic opportunity. Independent media is a root solution to 
solving these problems.
    And democracy programs in place in regions like Central 
America are critical to ensuring that foreign assistance is 
transformational, not just transactional. We urge the committee 
to continue to fund democracy programs at least at the level of 
the President's request in 2016.
    Women's voices are particularly essential to building 
healthy societies, and I brought a picture of some women that 
we are working with in Afghanistan. When women's voices are 
heard, when women produce the news, the information we all 
consume improves.
    Last year, Internews worked with nearly 8,000 women around 
the world from over 50 countries to reach parity in media 
management, content creation, and safe access to information. 
The impact of this support is being felt every day in places 
like Afghanistan, where this picture was taken. This is 
actually a picture of the first digital innovation boot camp we 
held in Afghanistan a couple of years ago. There is actually 
one going on this week, right now as we speak.
    In Afghanistan, we have trained thousands of women in 
multimedia skills and helped mentor five women-owned, women-run 
radio stations. And with more women's voices on the air, women 
have increased access to the information they need and greater 
influence on local policymaking.
    Finally, turning to global health, in sub-Saharan African, 
Internews has seen the enormous impact that quality local media 
has had on the HIV-AIDS epidemic and other health issues. Now 
we are working in Liberia and Guinea. We are on the ground, 
supporting accurate, trusted Ebola-related information to 
affected communities.
    During what we hope is the closing phase of the epidemic, 
the information needs are getting all the more important. To 
get to that zero new cases requires penetrating communities 
that have been long resistant to basic information about 
prevention and treatment.
    Information saves lives. We urge the committee to express 
support for media and information as a root solution to global 
health issues.
    Independent media and open information programs are 
fundamental to building peaceful democratic societies. Yet 
violence against journalists, censorship, and increasing 
incidents of hate speech are all on the rise, and I am 
concerned that the U.S. may prematurely reduce media programs 
in transitioning countries, such as Burma, Pakistan, and Sri 
Lanka. I believe a major goal of U.S. foreign policy should be 
universal access to quality, trusted local information, and I 
urge you to support these programs in fiscal year 2016.
    I thank you for your support. I thank you for the support 
of USAID and the State Department. I am happy to take any 
questions.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Ms. Granger. We will now hear from Mr. David Arnold. You 
are recognized for 4 minutes.

   OPENING STATEMENT OF DAVID D. ARNOLD, PRESIDENT, THE ASIA 
                           FOUNDATION

    Mr. Arnold. Thank you so much, Madam Chairwoman.
    For the past 60 years, the Asia Foundation has been 
supporting political and economic reforms and contributing to 
the stability of countries throughout Asia. Many of these 
countries today are among our most important and reliable 
allies of the United States.
    The foundation is extremely grateful for the committee and 
its support over the years and especially for sustaining 
funding for the foundation and our programs at $17 million in 
2015. To maintain and build on our 60-year record of 
accomplishment, the foundation is again requesting the 
committee support at a steady-state level of $17 million for 
fiscal year 2016, which is the same level as for 2014 and 2015 
and about 10 percent below the fiscal year 2013 level.
    The Asia Foundation is, first and foremost, a field-based 
organization. Through our 18 countries in Asia, the foundation 
is working in 5 core areas--democracy and governance, economic 
development, women's empowerment, environment, and regional 
cooperation. Our impact can be seen throughout Asia through 
stronger democratic institutions and civil society, increased 
prosperity, more opportunities for women in economic and 
political life, and growing regional cooperation between and 
among Asian countries and the U.S.
    The foundation leverages its appropriation by raising $4 of 
non-U.S. Government funding for every appropriated dollar, 
ensuring a robust program and higher impact for the 
congressional investment. We were particularly successful in 
diversifying and leveraging our core support under the 
stewardship of my predecessor, former Congressman Doug 
Bereuter.
    As you know, Asia is an increasingly critical region for 
the United States, both in economic and security terms. And the 
foundation's programs have contributed directly to the 
rebalance to Asia.
    With congressional support, this year the foundation has 
supported transparency and accountability in lawmaking and 
budgeting in Indonesia and Vietnam. We have worked in 
Bangladesh and the Philippines to reform burdensome regulations 
that stunt small business growth. We supported conflict 
resolution in Muslim communities in Thailand and Sri Lanka. And 
we have expanded the rights and protections for women by 
fighting trafficking and gender-based violence in India.
    The foundation's signature initiative is the Books for Asia 
program, which has provided 50 million English language books 
to more than 20 countries since 1954. Through this program, 
millions of Asian students and current and future leaders have 
gained access to global sources of knowledge and a better 
understanding of the United States.
    Our investment of $1 million in appropriated funds 
leverages about $10 million in donated English language books 
from U.S. publishers for Asia's schools, universities, and 
libraries. The foundation donated more than 30,000 books to 
Burma alone in 2014.
    In fiscal year 2016, congressional support at $17 million 
would enable the foundation to continue work to counter 
corruption and improve public accountability; sustain women's 
empowerment programs; expand new leadership, development, and 
training efforts; and support conflict resolution and peace-
building processes in places like Afghanistan, Sri Lanka, Nepal 
and Burma.
    We appreciate very much the committee's longstanding trust 
of and support for the Asia Foundation. The congressional 
appropriation authorized in the 1983 Asia Foundation Act has 
been and remains invaluable to the foundation's ability to 
achieve results on the ground and to fulfill our shared mission 
of maintaining the U.S. presence and advancing U.S. interests 
in Asia.
    We thank you very much for your support and for the 
opportunity to be here today.
    Ms. Granger. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Granger. Our next witness is Mary McQueen.

   OPENING STATEMENT OF MARY C. MCQUEEN, PRESIDENT, NATIONAL 
                    CENTER FOR STATE COURTS

    Ms. McQueen. Thank you. Thank you, Madam Chair, Mrs. Lowey.
    I appreciate your patience this afternoon, and you have our 
written testimony. So I wanted to kind of put a face on some of 
the points that I want to talk about.
    As president of the National Center for State Courts, it is 
possibly a question about why State courts and international 
relations? And in fact, over 95 percent of the litigation in 
this country happens in State courts. And I think it was 
Madison who said, ``It is much easier to write a Constitution 
than to implement one.''
    And what we find is that going into developing democracies 
and helping them establish the rule of law, and what we mean by 
that is liberty and justice for all, empowering women judges, 
and protecting basically human rights, liberty. I mean, we have 
heard a lot today about education and medical care and economic 
development, but if a country doesn't have a stabilized legal 
system, it impedes economic development.
    And so, I just wanted to share with you just very quickly 
what some of the dollars you have invested in these rule of law 
programs have resulted in. And I have to say one of my first 
opportunities to work with another developing democracy was in 
Kosovo, and we were training judges and basically trying to 
share what you would think other countries think is really the 
gold standard, which is this fair and independent and impartial 
court system that we have in the United States.
    And so, we were training. He came up to me afterwards. His 
name was Chief Justice Haji Moosa. And he says, ``Where can I 
get a copy of the book?'' Now, obviously, we were talking 
through an interpreter.
    And I started laughing, and he says, ``Is it a very old 
book?'' And I said, ``Yes, it is The Federalist Papers.'' And 
so, based on that, we actually started using The Federalist 
Papers because they are an excellent blueprint about how a 
democracy works.
    And overnight, just because we established we are a 
constitution, we are a democracy, we have seen an action on the 
ground that people have to learn what their role is in 
supporting that democracy.
    So I just want to share just very quickly. We have heard 
today about some of the programs in Central and South America. 
We all remember the undocumented children who we were looking 
in Honduras when they came across the border. We very quickly, 
using judges in the United States, with judges in Honduras, 
established a program because you think that may be a Federal 
issue? State court judges have to make findings relating to 
these children before they are then--they then go on to the 
immigration courts.
    We were talking about social media. One of the things that 
we have found that we have to combat what we see this extremist 
use of social media is providing alternatives on social media 
for juveniles.
    Working in Central America and in Colombia, it's very hard 
to do that. And developing a series of justice system journals 
using graphic novels and YouTube to explain to children, you 
know, that they can be protected. They do have hope.
    I have to say that one personally, for me, an example was 
when I was in Kosovo, and you can establish a constitution. You 
can tell women that they now have legal rights. But the 
cultural challenge of them really believing that comes home on 
the ground. And so, the advocates, the lawyers in Kosovo 
decided to do a street fair where they set up tables and 
invited the general population to come up.
    And so, I was sitting there, and I don't think she knew 
that I couldn't speak her language. And she started crying and 
telling me how much she appreciated the work of the USAID 
project--because they will have a card, you know, that will 
have the USAID emblem on it. Human trafficking is a very 
serious issue in the Balkans, and through these women judges 
who were trained, she was able to retain custody of her 
children that she felt kept them out of human trafficking.
    So while all of us, you know, can place our hands over our 
hearts and say ``liberty and justice for all,'' it really took 
me meeting the chief justice of Iraq to have a personal 
understanding of what that means, when he told me about his son 
being killed by terrorists in retaliation for an opinion he 
wrote.
    And so, the investment that you make in rule of law comes 
home tenfold, and I just want to thank you for that continued 
support.
    Ms. Granger. Thank you very much. Thank you for being here 
with us.

    I worked in Iraq as they were writing their constitution, 
and one of the things we did was work with women to help them 
understand the rule of law and understand there is a justice 
system. We had a seminar on what democracy is and to show them. 
We play-acted some things and I remember thinking back, I 
really had to go back to basics to act it out. I will never 
forget the whole day of that and trying to explain to people 
what it would mean to them if they actually had a law they 
could depend on and justice.

    Thank you for what you do.
    Ms. McQueen. Thank you.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Mrs. Lynn Stratford. You 
are recognized for 4 minutes.

  OPENING STATEMENT OF LYNN STRATFORD, SENIOR VICE PRESIDENT, 
                 UNITED STATES FUND FOR UNICEF

    Ms. Stratford. Thank you, Chairman Granger.
    I am grateful for the opportunity to testify on behalf of 
more than 1 million Americans who support UNICEF's global 
lifesaving work for children.
    In order to save and improve the lives of millions of 
children around the world, I respectfully ask the subcommittee 
to provide at least $132 million as the U.S. Government's 
voluntary contribution to UNICEF for fiscal year 2016. This 
would maintain the funding at the same level you provided both 
in fiscal years 2015 and 2014 and is the amount in the 
administration's fiscal year 2016 budget request.
    First, let me thank you for your committee's consistent 
bipartisan support for UNICEF's work. I would also like to 
thank you for the support you have provided for the USAID 
maternal and child health account. We encourage you once again 
to make children a top priority of your global--of our global 
assistance and ask you to provide at least $850 million for the 
maternal and child health program.
    The American people agree that saving children from 
preventable deaths is a worthy application of our foreign 
assistance dollars. We know that the funding you have secured 
over the years for UNICEF and for child survival is achieving 
real, measurable results.
    In 1990, 12.7 million children under the age of 5 died from 
preventable causes. Today, that number has dropped dramatically 
to 6.3 million. And by sustaining these resources, preventable 
childhood deaths can virtually be eliminated in another 20 
years or within a generation.
    UNICEF is a global partner that enables the United States 
to help more children. I have seen it most recently in 
Botswana, where every community in the country supports Child 
Health Days, where community leaders encourage not only birth 
registration, but early childhood development, and where we are 
on the brink of seeing the first HIV-AIDS generation born.
    UNICEF is the world's largest provider of vaccines. In 
2013, UNICEF provided 2.8 billion doses of vaccines for 100 
countries and procures vaccines for GAVI, the Vaccine Alliance. 
UNICEF works in country to make sure those vaccines reach even 
the poorest children in the poorest communities.
    UNICEF works in partnership with Kiwanis International to 
eliminate neonatal and maternal tetanus and is a key part of 
the campaign with Rotary International to end the global 
scourge of polio. UNICEF and the Red Cross work together with 
U.S. agencies to fight measles globally, and the U.S. Fund for 
UNICEF supports the requests made by our partners GAVI, 
Kiwanis, and Rotary.
    The funding you provide for UNICEF enables us to be on the 
ground when disaster strikes. For example, and most recently, 
when Cyclone Pam devastated Vanuatu this month, UNICEF was 
already there to respond with prepositioned supplies and to 
help children in evacuation centers.
    Last year, with U.S. support, UNICEF responded to 289 
emergencies in 83 countries, including the major crises like 
Ebola, Syria, and South Sudan. In Syria, UNICEF has provided 
16.5 million people with safe drinking water and helped nearly 
3 million children have access to learning materials so that 
they can keep up with their education.
    These are just a few examples of what UNICEF does. The 
funding you provide to UNICEF's ongoing programs make this work 
possible and supports the private sector partnerships like the 
ones I've mentioned.
    This subcommittee has long been a champion for the well-
being of the world's children and has worked to make children a 
priority of our international assistance. Your support for 
UNICEF has helped make UNICEF an indispensible partner of the 
United States on initiatives to save and protect the most 
vulnerable children around the world.
    But we cannot rest on our past successes because 6.3 
million children still die under 5 every year, and that means a 
child dies every 5 seconds and mostly from causes that we can 
prevent. Nearly half of those deaths are newborns under a month 
old, and together, we can save those children.
    Please strengthen the incredible lifesaving collaboration 
between the United States Government and UNICEF by providing 
$132 million for fiscal year 2016, and thank you for putting 
children first.
    Ms. Granger. Thank you very much. Thanks for being with us.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Lucy Martinez Sullivan. 
You are recognized for 4 minutes.

    OPENING STATEMENT OF LUCY MARTINEZ SULLIVAN, EXECUTIVE 
                      DIRECTOR, 1,000 DAYS

    Ms. Sullivan. Chairwoman Granger, thank you for this 
opportunity.
    I am grateful to be here today to describe why the funding 
that you provide through the nutrition subaccount of the global 
health programs at USAID has such an enormous impact on the 
future of millions of people's lives.
    Through this account, you provide targeted funding to 
improve nutrition during the critical 1,000-day window between 
a woman's pregnancy and her child's second birthday. It is 
during this short, but very powerful window of time when 
nutrition provides the basic building blocks of a child's brain 
and the blueprint for her lifelong health.
    And it is when the damage done by malnutrition is the most 
severe and, sadly, irreversible. Malnutrition robs children of 
their potential. It stunts their growth, and it stunts their 
brains. And this typically begins in pregnancy with a mother 
who, herself, is malnourished.
    Today, 170 million children are stunted as a result of 
malnutrition, and these children go on to do less well in 
school, and over their lifetimes, they are sicker and poorer 
than their well-nourished peers. And if they are girls, they 
are more likely to become mothers who then give birth to 
malnourished children, and the intergenerational cycle of 
malnutrition perpetuates itself.
    Malnutrition is also a killer. Twenty percent of all 
maternal deaths and almost half of all child deaths under the 
age of 5 are attributable to malnutrition. Three million 
children die every year because their bodies are drained of the 
basic life-giving nutrients they need to survive and thrive, 
and as a mother of two young children myself, I find this 
statistic unbearable.
    In addition to the devastating impact it has on human 
lives, malnutrition is an economic disaster for countries. A 
recent study found that countries lost as much as 16 percent of 
their GDP to maternal and young child malnutrition.
    Together with the funding that you provide to improve 
agriculture, food security, WASH, MCH, and for humanitarian 
assistance, the modest investments that the U.S. makes through 
the USAID nutrition subaccount can go a long way toward 
changing this picture.
    For example, funding from this account goes towards 
supporting new mothers to breastfeed their babies through the 
first 6 months of their lives, a simple intervention that has 
the power to save up to 800,000 babies from dying each year.
    Investments in nutrition save lives, but they also provide 
a lifetime of economic benefits. Studies show that children who 
are well nourished during their early childhood go on to earn 
46 percent more as adults, and every single dollar that is 
invested in nutrition, countries can expect as much as $48 in 
return in gains in economic productivity.
    It is why leading economic experts, including Nobel Prize-
winning economists, have consistently stated that policymakers 
should prioritize investments in nutrition. And with continued 
bipartisan support, Congress has an opportunity to approach 
development differently, with investments in nutrition now that 
have a huge impact and huge payoffs in terms of ending 
preventable maternal and child deaths and helping future 
generations thrive.
    I thank you for your leadership and your kind attention 
today.
    Ms. Granger. Thank you very much.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Ms. Deborah Derrick. You 
are recognized for 4 minutes.

OPENING STATEMENT OF DEBORAH DERRICK, PRESIDENT, FRIENDS OF THE 
                          GLOBAL FIGHT

    Ms. Derrick. Okay. Thank you.
    I am totally honored to be here, and I have got to say a 
bit daunted by all the wonderful causes and expositions that 
have come before me.
    First, I would like to thank you, Chairwoman Granger, and 
your ranking member, Nita Lowey, and the other members of the 
subcommittee for being such great bipartisan supporters of all 
of these programs and of global health, and I am here to talk 
about the Global Fund. We really appreciate your support and 
help in the past and, again, the fact that you are doing it all 
on a bipartisan basis. That is tremendous.
    We would also like to acknowledge the administration's 
support for these same programs and to acknowledge in 
particular their $4 billion pledge over the past--for the 3-
year replenishment period and the fact that they have met that 
with their budget request that they put forward to you today. 
We do think that more can be done.
    Because of the congressional and the U.S. Government 
support of these programs in the Global Fund, 7.3 million 
people have gotten ART; 2.7 million mothers have been given 
drugs to prevent their babies from getting AIDS at birth; 430 
million people have received insecticide-treated bed nets, and 
they have been distributed to them; 12.3 million tuberculosis 
cases have been found and treated. Again, the result of your 
work here in the subcommittee and U.S. Government's largesse 
writ large has literally saved millions of people around the 
globe.
    So I am here today to ask for $1.35 billion for the Global 
Fund in fiscal year 2016. As you know, the Global Fund 
leverages other donors' contributions from around the world on 
a 2-to-1 basis. These contributions come from other 
governments, from the private sector, from faith-based 
organizations, and from high net worth individuals.
    It means, in net, that the U.S. Government is not funding 
these programs on their own. The Global Fund programs augment 
and extend the reach of these great bilateral programs that the 
U.S. Government has established, PEPFAR and the PMI, and we 
work hand-in-glove with these programs. So providing robust 
funding for all of them is quite important to us.
    I see that my time is limited. I want to highlight two 
things, which indicate how we are working in Geneva to make 
sure that all of the U.S. and other donors' monies are being 
spent well.
    We have saved some $400 million in procurement from reforms 
that have increased the impact of what we have done over the 
past couple of years. We have also been working strenuously to 
make sure that we get increased domestic financing. So, again, 
it is not just the U.S. and other donor governments that are 
contributing to this, but the implementing countries that are 
putting their own funding into it.
    Over the course of the last half year or so, the programs 
that we have put forward in the concept notes that we have 
developed have raised $3.4 billion in pledges from implementing 
countries, which will then translate into additional resourcing 
for these programs.
    So, once again, I would like to ask for $1.35 billion for 
the Global Fund in fiscal year 2016. I want to thank you deeply 
for your support, for the State Department's support, for the 
U.S. Government support for the Global Fund for PEPFAR, for 
PMI, for programs that are saving lives around the world.
    Ms. Granger. Thank you very much. Thanks for being with us.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Ms. Natasha Bilimoria. 
You are recognized for 4 minutes.

OPENING STATEMENT OF NATASHA F. BILIMORIA, DIRECTOR, GAVI, THE 
                        VACCINE ALLIANCE

    Ms. Bilimoria. Thank you, Chairwoman Granger and all the 
members of the committee. I really appreciate the opportunity 
to appear before you on behalf of GAVI, the Vaccine Alliance.
    I want to thank the entire committee for the incredibly 
strong, bipartisan support of GAVI throughout the years and for 
approving $200 million for fiscal year 2015.
    Your commitment to global health demonstrates the 
incredibly strong U.S. leadership in saving children's lives 
around the world, and with this support from the United States, 
as well as other donors, GAVI and its partners have immunized 
half a billion children since its inception in 2000, saving 7 
million lives. And what that has really done is providing--
provided an entire generation a real chance at a healthy and 
productive life.
    For fiscal year 2016, I respectfully request the 
committee's approval of the administration's request of $235 
million for GAVI in the State, foreign operations 
appropriations bill, and I also ask for your support for 
funding for the maternal child health account at $850 million.
    GAVI's mission is to save children's lives and protect 
people's health by increasing access to immunization in poor 
countries. As a true public-private partnership, GAVI brings 
together donor and recipient governments, the Bill and Melinda 
Gates Foundation, the private sector, including the vaccine 
industry, and international organizations, including UNICEF, as 
well as civil society, including FBOs, to reach goals that none 
of these single organizations could achieve on its own.
    And because of this, the alliance has been able to improve 
access to new and underused vaccines for children in the 
world's poorest countries, where 85 percent of the world's 
unvaccinated children live.
    GAVI's funding supports 14 vaccines, including those 
against pneumococcal disease and rotavirus, which are the two 
leading causes of death in children under 5. By just rolling 
out the pneumococcal vaccine, more than half a million lives 
will be saved in GAVI-supported countries by the end of this 
year.
    And since the 5-in-1 pentavalent vaccine was launched in 
2001, all 73 GAVI-eligible countries, including the newly 
formed South Sudan, have introduced it into its routine 
immunization programs. These are just two examples of how 
GAVI's support has helped to increase global immunization rates 
to unprecedented levels.
    The current Ebola outbreak underscores how important new 
vaccines are in the fight against infectious disease, and 
because of our innovative funding and partnership model, our 
board in December of 2014 endorsed a plan to purchase a vaccine 
for the three most effective countries once the World Health 
Organization recommends a safe and effective vaccine for use.
    GAVI's strong support for routine immunization, which is 
really the core work we do, is meant to be catalytic, and 
country ownership is very much an inherent part of our model. 
All GAVI recipients, every single one, must contribute 
financially by providing some amount of the cost of the 
vaccines they use.
    As their own financial capacities develop, they transition 
into a 5-year process to graduate from our support and, 
therefore, take on the cost of their own vaccine purchases. 
These policies really demonstrate countries' strong support for 
not only improving the health and welfare of their own 
children, but also creating a sustainable national vaccine 
program.
    In January, GAVI mobilized $7.5 billion at its second 
replenishment conference in Berlin, and that included a pledge 
from the United States of $1 billion over 4 years, subject to 
congressional approval, of course. This funding will support 
GAVI in the next program period from 2016 to 2020, where we aim 
to immunize an additional 300 million children, resulting in 5 
million to 6 million lives saved.
    We are working closely with USAID to ensure that these U.S. 
investments to GAVI build upon the existing successes to make 
benefits of vaccines in poor countries permanent for the next 
generation. And with all of this expanded support, we are very 
well positioned to save and improve more lives.
    A contribution of $235 million from the United States for 
fiscal year 2016 will ensure that lifesaving vaccine programs 
are supported and expanded and, thereby, reaching more 
children, especially those who are in the most vulnerable 
places and hardest to reach.
    In closing, I just want to thank this subcommittee and the 
Congress and the U.S. Government for all of its bipartisan 
support for GAVI, which is essential to meeting our collective 
goal of reducing child mortality.
    Thank you.
    Ms. Granger. Thank you very much.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. We will now hear from Mr. Bedir Memmedli. 
Thank you.

   OPENING STATEMENT OF BEDIR MEMMEDLI, BOARD MEMBER, UNITED 
                     STATES AZERIS NETWORK

    Mr. Memmedli. Ms. Granger, I am very grateful for the 
opportunity to submit a testimony on behalf of Azerbaijani-
American community, a grassroots organization, which wants and 
promotes fair and needs-driven foreign assistance based on 
three important criteria.
    First, allied relationship of the receiving state with the 
U.S. Second, the receiving nation must have a demonstrated and 
certified necessity and need to be able to absorb the aid. And 
third, the legality of the aid and compliance with the U.S. and 
international laws.
    We believe there is a great imbalance in the U.S. 
assistance to Azerbaijan versus Armenia. Azerbaijan, which is a 
victim of Armenian immigration and occupation, always gets much 
less than the smaller, but very aggressive Armenia.
    According to the Congressional Research Service, since 
1992, Azerbaijan has received a total of $1 billion in U.S. aid 
while Armenia received over $2.2 billion in aid. This is 
despite the fact that Azerbaijan is more than twice the size 
and population and has several times the size of refugees and 
displaced people who were expelled from their homes as the 
result of Armenia's ethnic cleansing, which explains why once 
ethnically diverse Armenia is the only mono-ethnic country in 
the former Soviet Union territory.
    In addition, in light of the ongoing occupation of the 
internationally recognized territories of Azerbaijan, which 
runs against the fundamental principles of international law, 
we believe the Congress should ensure that there is no direct 
military aid to Armenia. The direct military assistance to 
Armenia not only helps it maintain the occupation of 
Azerbaijani territories, but also misuse the U.S. taxpayers' 
money to boost Russian-led military allies, not collective 
security treaty organization to which Armenia is a full-fledged 
member.
    In this context, it shouldn't come as a surprise that 
Armenia is the only country in the South Caucasus that hosts 
the Russian military base with lease up to 2044.
    The other issue that Azerbaijan Americans have been very 
vocal about over years is the U.S. humanitarian assistance to 
the victims of Azerbaijan and Armenia conflict. Unfortunately, 
the U.S. assistance has been solely directed to the Armenian-
occupied region of Azerbaijan, which is Nagorno-Karabakh.
    In previous years, the issue has spurred much controversy 
and resentment among Azerbaijani community of the occupied 
territories, and Azerbaijanis all over the world, including 
United States, since it unfairly favored one side over the 
other. But for the last 2 years, the Congress established a 
compromise solution by admitting a specific language under U.S. 
humanitarian assistance to the victims of Armenia and 
Azerbaijan conflict. This compromise is in line with the U.S. 
neutrality as honest broker in the ongoing peace negotiations.
    We believe that this compromise solution should be 
maintained in fiscal year 2016 State, Foreign Operations, and 
Related Programs bill, too. Unfortunately, despite this fact, 
the U.S. administration continues to allocate aid directed to 
the Armenian-occupied region of Azerbaijan, bypassing 
Azerbaijan's central authorities.
    U.S. doesn't give any direct aid to similar post Soviet 
conflict zones, such as Crimea, Abkhazia, South Ossetia, and 
Transnistria, not to mention many other similar regions around 
the world. Then why to provide any direct aid to occupied 
Nagorno-Karabakh region?
    Direct aid to the Armenia-occupied Nagorno-Karabakh region 
of Azerbaijan obviously causes irritation and protest on the 
part of both Azerbaijan and Azerbaijani Americans and spoils 
the relations between allies significantly. It is our firm 
belief that U.S. must stop providing assistance to the occupied 
territories of Azerbaijan and be consistent and credible in its 
policy of upholding the principles of territorial integrity.
    In addition, the U.S. direct assistance to the occupied 
Nagorno-Karabakh region helps Armenia consolidate its 
occupation of 16 percent of Azerbaijan's internationally 
recognized territories, which serve as a black hole for drug 
trade, arms smuggling, proliferation of radioactive and nuclear 
materials, and other illicit activities.
    In addition, 82 miles of Azerbaijan-Iranian border, which 
fall in the occupied territories, are used by Armenia for 
various illegal transfers. It is not secret that Armenia enjoys 
very strong ties with the Iranian regime.
    In late 2008, the government of Armenia illegally supplied 
Iran with rockets and machine guns that ended up in the hands 
of insurgents and later were used to kill U.S. soldiers in 
Iraq. For example, in 2010, Washington Times published an 
article that confirmed this deal, and it also listed the names 
of U.S. soldiers that became victims of Armenia's irresponsible 
act.
    These factors necessitate ending the U.S. assistance to the 
occupied territories of Azerbaijan, too. And also it is a well-
known fact that Armenia has been supportive of Russia's 
annexation of Crimea and voted against Ukraine's territorial 
integrity in the U.N. General Assembly, along with a handful of 
countries last year.
    Also, in March 2014, Armenian president Serzh Sargsyan 
called Russian president Vladimir Putin to personally and 
officially endorse Russia's illegal annexation of Crimea. 
According to Consolidated Appropriation Act of 2015----
    Ms. Granger. You are a minute and a half over.
    Mr. Memmedli. Thank you for your time. I would be delighted 
to hear any questions.
    Ms. Granger. Thank you for being here.
    Mr. Memmedli. Thanks.
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Granger. Appreciate it very much.
    Thank you all for being here. Thank you again for staying 
here when we had to be interrupted by votes.
    I always remember, and Mrs. Lowey feels exactly the same 
way, the subcommittee saves lives and improves the quality of 
life for people all over the world. We never forget that, and 
our decisions are based upon that.
    Thank you so much.
    I thank the witnesses for appearing before this 
subcommittee today. The Subcommittee on State, Foreign 
Operations, and Related Programs stands adjourned.

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
